<html>
<title> - THE FISCAL YEAR 2016 BUDGET REQUEST FOR THE U.S. FOREST SERVICE</title>
<body><pre>[Senate Hearing 114-29]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 114-29
 
    THE FISCAL YEAR 2016 BUDGET REQUEST FOR THE U.S. FOREST SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

              THE FISCAL YEAR 2016 BUDGET REQUEST FOR THE
                          U.S. FOREST SERVICE

                               __________

                           FEBRUARY 26, 2015
                           
                           
                           
                           
                           
                           
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                           
                           


                             Printed for the use of the
                     Committee on Energy and Natural Resources
                                 _______________
                  
               
                         U.S. GOVERNMENT PUBLISHING OFFICE
 94-047 PDF                      WASHINGTON : 2015             
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001              
               
             
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Natural Resources Policy Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
        
        
        
        
        
        
                                (II)
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

Tidwell, Thomas, Chief, U.S. Forest Service, U.S. Department of 
  Agriculture....................................................     6

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria
    Opening Statement............................................     3
Murkowski, Hon. Lisa
    Opening Statement............................................     1
Tidwell, Thomas
    Opening Statement............................................     6
    Written testimony............................................     9
    Responses to Questions for the Record........................    53


    THE FISCAL YEAR 2016 BUDGET REQUEST FOR THE U.S. FOREST SERVICE

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2015

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:50 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Lisa Murkowski, 
Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning, we will call the Energy 
Committee meeting to order. Perhaps it's because we're starting 
a little bit earlier or perhaps it's because it's a snow day, 
but it can't possibly be because there's lack of interest in 
what goes within the Forest Service.
    Chief Tidwell and Mr. Dixon, I welcome you to the 
Committee.
    We are here for our third and our final budget hearing in 
the Energy Committee to review the President's request for the 
Forest Service for FY '16.
    Again, Chief, I appreciate you being here this morning to 
explain the proposal.
    It seems like we have the same conversation year after year 
about how the Forest Service is going to get the timber cut up, 
provide more economic opportunities for our rural and forested 
communities. Over the last decade the timber harvest from the 
Tongass has averaged just 35 million board feet a year. This is 
a forest the size of West Virginia, but we see severe 
restrictions including the roadless designation that really put 
most of it off limits.
    The Secretary apparently has a plan to transition the 
timber harvest on the Tongass away from old growth to young 
growth. Chief, you and I have talked about this. These small 
operators are hanging on by their fingernails, and I keep 
repeating (and I will repeat again today) that I worry there's 
not going to be anything to transition to given what we have 
seen coming out of the Forest Service operations.
    Some would suggest that is really the whole point of where 
we are going is to be in a situation where we are eliminating 
forestry from the Tongass' economic base. That is not something 
that is right, and it is not something I can tolerate.
    When you look at what we are seeing, and I know you know 
because I know you have been briefed on this, but there are no 
logs in the yard in the only sizeable mill. There is no federal 
assistance that has been given to retool a single mill to 
handle young growth in Southeast Alaska. I think that the 
Forest Service has broken the federal government's promise to 
actively manage our National Forests. Now the failure to 
reauthorize Secure Rural Schools is revealing this stark 
reality to forested communities across the West.
    We have reached a point where if we're not cutting trees on 
federal lands and we hardly are, then counties and parishes and 
boroughs are going to be cutting their budgets. We are 
certainly seeing that in Alaska, and I would imagine in other 
Western states as well.
    The timber industry can be sustainable but the funding 
required for Secure Rural Schools in the absence of timber 
harvesting simply is not sustainable. The Forest Service can't 
hide or make excuses any longer. Just 50 million dollars will 
be shared nationwide with our communities under the proposal or 
the process going forward of SRS.
    In Alaska what that means to us is $537,000 spread out over 
the entire state. $537,000 in Alaska. We are going to work on 
forest management reform legislation to help resolve this 
situation, but the Forest Service has to be working with us.
    Often we hear that recreation and tourism are the economic 
engines of the future, and I see this budget would increase 
funding for recreation programs. I agree with you that these 
programs are important. Certainly in Alaska we are very, very 
proud of our recreation industry, but recreation and tourism 
are not substitutes for responsible resource development on 
federal lands. They are complements to it.
    We have, for the past 50 years, shown that resource 
development, recreation and tourism can easily co-exist. We are 
very proud of that fact, and we are very proud people want to 
come to Alaska. It is on their bucket list. It's the ``before I 
die I want to see Alaska.'' Yet they know we are a resource 
production state, and our return tourists are what allow for 
that strong industry. So it's not like you've got a situation 
where we are not able to balance that within our state. I think 
we do it. We have done it successfully and sustainably.
    Recreation and tourism also require public access, and 
these days, just as we are seeing with resource development, 
even these activities are being shut down by restrictive 
federal policies. When you were up in the state we had a good 
opportunity to understand what was going on in the Ketchikan 
area and Misty Fjords. We have commercial flightseeing 
operators who take people around to this pretty amazing place. 
The Forest Service on one hand is saying you need to move 
towards more recreation management, and on the other hand they 
are saying, sorry, we've got to limit the number of landings of 
float planes because they could impede the area's wilderness 
character.
    You are knocking out float planes that would allow so many 
people to see the Misty Fjords. It is not possible to see it 
any other way. It's not like you can hike in. This is the way 
you can see it. This is the way that you can access it, yet we 
have got the Forest Service saying, no, it needs to manage this 
for wilderness character.
    And it goes beyond just that. I am going to bring up in my 
questions the concern that I am hearing from so many. This is 
not just in Alaska, but so many others about the limitations on 
even being able to view pictures or films because of the 
limitations or the restrictions for individuals who would film 
on our public lands or Forest Service lands.
    Chief, I told Secretary Jewell earlier this week and I 
think it bears repeating, this Administration is actively 
impeding many of our best economic opportunities in the West. 
It is depriving thousands who live in our states of the ability 
to find a good job, earn a good wage and live a good life.
    Before I conclude my comments I think I would be remiss if 
I did not mention the elephant in the budget which is wildfire 
suppression funding. This budget, again, proposes a wildfire 
suppression cap adjustment, and I share the primary goal of 
that proposal. We absolutely have to stop the cycle of fire 
borrowing, but I also know that there are concerns about the 
mechanics, particularly in this constrained budget environment. 
There are several legislative proposals to consider here, and I 
do hope we can work on them with you, Chief, as well as the 
Budget Committee.
    I look forward to your responses this morning. I'll turn to 
my Ranking Member, and then we will get started. Thank you.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair. I want to thank 
Chief Tidwell and Budget Director Dixon for being here. I am 
sure any member that comes to participate in this morning's 
hearing is going to have very detailed questions for you given 
the nature of the areas that we represent, so thank you for 
your budget proposal.
    It is a pleasure to have you and the leadership of your 
team. The health and vibrance of America's national forests are 
of particular interest to the American people and, as I said, 
to the individual States we represent. I believe the 
President's budget is a strong proposal that will enable the 
Forest Service to fulfill its motto of, ``caring for the land 
and serving the people.''
    The budget not only improves the health of our land but 
also continues your predecessor's legacy of managing the forest 
to provide the greatest good to the greatest number of people 
in the long run. This proposal also demonstrates a strong 
commitment to the full range of national forest ecosystem 
services including water quality improvement, recreational 
opportunity for the public, energy for the nation, wildlife 
habitat, and timber and non-timber forest products.
    But as you know, Chief, as we have discussed, there are 
particular issues that Washingtonians are worried about. I will 
look forward to bringing up some of those in the Q and A part 
of this hearing today.
    Last year the Pacific Northwest saw the number of acres 
destroyed by wildfire increase by 200 percent above the yearly 
average. In Washington we experienced the worst wildfire in our 
history. In 24 hours the Carlton Complex burned 156,000 acres 
and, at its peak, moved at five acres per second, destroyed 
over 300 homes and accounted for seven percent of the total 
acres destroyed by wildfires in the United States last year.
    Most of my Western colleagues have, in recent hearings, 
shared similar stories, and this is a problem we must confront 
immediately. In this respect I want to commend you on your 
budget's three-pronged approach to address our nation's 
wildfire problem.
    Stable funding. This budget would ensure that the Forest 
Service would not have to transfer funding from its land 
management accounts to pay for fire suppression. I support 
fixing the Forest Service fire transfer problem which has 
placed enormous strain on its budget for more than a decade. 
That is why I joined Senators Wyden and Crapo as original co-
sponsors of the Wildfire Disaster Funding Act legislation that 
is endorsed by this budget.
    Secondly, in management. I also support provisions in this 
budget that would increase the land management activities that 
reduce fire risk, improve water quantity and quality and 
enhance carbon sequestration.
    Third, collaboration with private landowners. I appreciate 
your collaboration just this morning on reviewing some of the 
activities that happened in the Carlton Complex Fire with one 
of our larger employers, Gemplers Farm, who were part of the 
response to that fire.
    I am also excited about your engaging private landowners to 
take steps to reduce the risks posed by fires, and I would like 
to share a few important facts that demonstrate why this 
collaboration is so important.
    Today there are 46 million homes, that is 40 percent of all 
the houses in the U.S., located in the Wildland-Urban 
Interface. In the 1990s, only about four percent of homes were 
located in this interface. Fire experts cite housing 
development in the Wildland Urban Interface as the number one 
reason firefighting costs have increased over the last 15 
years. Only 16 percent of the Wildland-Urban Interface has been 
developed. When 50 percent is developed, suppression costs 
could rise to a dramatic $4 to $5 billion annually.
    Given these facts I am particularly interested in 
discussing with the Forest Service efforts to make prescribed 
fire a tool that is more accessible to private landowners. I 
learned reading your budget that wildfires helped the forest 
conditions on 70 percent of the acres they burned last year, 
and these were conditions the Forest Service planned to spend 
money to create. The ARPS Canopy Model you developed in 2014, 
when deployed more broadly, will be a great example of using 
technology to help get that reintroduced onto private land in a 
safe and effective manner.
    Although there is a great deal to be pleased about in this 
budget there are a few items that are confusing and need 
further explanation.
    I am pleased to see that you still plan to reduce hazardous 
fuels on 1.73 million acres in that Wildland-Urban Interface; 
however, I am concerned about your intention to treat fewer 
acres that are supported by Community Wildfire Protection 
Plans. 70,000 communities are at risk for wildfire, but only 
15,000 have a Community Wildfire Protection Plan.
    It appears you intend to prioritize projects in places 
where local officials have not reached an agreement on which 
treatments to use. This seems inconsistent with the 
Administration's emphasis on collaboration. I definitely want 
to talk to you about that.
    Similarly, I do not understand why the budget proposes a 
six-percent cut in Preparedness funding. $63 million. Your own 
Fire Budget Analysis tool concluded that every dollar cut from 
Preparedness funding results in an increase of 1.7 dollars in 
the cost of suppression. I look forward to discussing those 
issues further.
    I want to just bring up in my statement the importance of 
recreation. The Chairman just brought that up as well. I'm 
pleased that this year's budget builds on our recent track 
record of success with a proposed modest increase of $2 million 
for recreation.
    Recreation on our national forests contributes $13 billion 
to the economy and 194,000 jobs. They are created from the 
National Forest system, and that's about 40 percent of the 
National Forest contribution to our GDP. The economic impact of 
recreation on our national forests is more than four times as 
large as our harvesting timber which provides for 2,000 jobs 
and creates $2.7 billion annually, so actually timber 
harvesting is among the lowest contributors on the national 
forests today. It ranks right around livestock grazing in 
national forests in terms of job impact. Truthfully, today only 
about three percent of the domestically produced timber comes 
from the National Forests.
    Revitalizing and expanding recreation on our National 
Forests is an initiative that Senators on both sides of the 
aisle can get behind, and today youth spend 50 percent less 
time in our natural areas than they did 20 years ago. We 
certainly want to look at every way that we can increase that. 
I will have some questions on that specifically. Investment in 
recreation is an investment in which we can get a high return.
    The average age of a Forest Service facility is 39 years 
old, and one-third of the facilities are more than 50 years 
old. While it makes sense that you removed over 2300 of these 
facilities in 2014, I am pleased the budget calls for the 
significant investment of $33 million to address their deferred 
maintenance.
    I am pleased to know, if I am reading your budget right, 
that about $1 million of that would be an investment 
specifically at Mount St. Helens National Monument.
    I would also like to commend the President for a strong 
commitment to fully funding the Land and Water Conservation 
Fund in this budget. Six thousand acres of open space are lost 
each year to development. That is about four acres per minute. 
The Forest Service's Land and Water Conservation investment 
would permanently protect working forest lands and help 
maintain our rural jobs.
    I just want to also mention that people in my state expect 
public access to their land, so I'm especially pleased to see 
your proposal for five Land and Water Conservation Fund 
initiatives focused on increasing public access.
    I am pleased to note the President's budget proposal 
emphasizes forest restoration. This is most clearly highlighted 
by the $822-million investment in the Integrated Resource 
Restoration line item, or the IRR, which would improve 20 
watersheds.
    I also appreciate the way the Administration has viewed 
timber harvesting as a means of restoration. In this term 
alone, the President is bringing a 25 percent increase in 
timber harvesting by focusing on the timber harvesting that 
helps the forests. This proposal calls for national forests to 
produce 3.2 billion board feet of timber by 2016. This is 50 
percent more timber than the 2.1 billion board feet of the Bush 
Administration. So, to me, this is how we can take care of the 
land and take care of people.
    Lastly while I remain concerned about the sharp decline in 
the miles of streams the Forest Service would restore under 
this budget proposal, I am excited about the increase in road 
decommissioning. The budget increases the miles of 
decommissioning to 2,000 miles in 2016, a 25-percent increase.
    I want to specifically thank Regional Forester Pena for 
working with me to secure a substantial increase in the Legacy 
Roads and Trails funding for the State of Washington and 
reducing our quantity of roads while allowing the Forest 
Service to concentrate its limited resources. It has been 
greatly appreciated.
    I am sure we'll have a lot more to say, and our colleagues 
will, on subjects like the reauthorization of Secure Rural 
Schools. As I said earlier, there are many things my 
colleagues, who are here this morning, will have, I'm sure, for 
the Forest Service because each of us represent States that 
have an integral relationship with the Forest Service.
    So, again, thank you and Mr. Dixon for being here this 
morning.
    The Chairman: With that we will turn to you, Chief, and 
welcome to the Committee. Good morning.

 STATEMENT OF THOMAS TIDWELL, CHIEF, U.S. FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Tidwell. Madam Chair Murkowski, Ranking Member 
Cantwell, Senators of the Committee, once again it's a 
privilege to be here to be able to talk to you about the 
President's budget request for the Forest Service for FY '16.
    I appreciate your comments. You made many of my key points 
already for me during your opening remarks, but I just want to 
amplify a couple things.
    This budget request, once again, will allow us to continue 
to move forward with our efforts to restore the nation's 
forests and grasslands. It will allow us to treat over 2.9 
million acres to improve the health and reduce the threat. It 
will allow us to restore 3,200 miles of streams, restore 2,000 
miles of roads and improve the ecological conditions on 20 
different watersheds and also will produce 3.2 billion board 
feet.
    We want to add to our collaborative forest landscape 
restoration project. This has proven to be a very successful 
program we've had where we can make the commitment to provide 
funding, multiyear funding, on a dedicated large landscape and 
through a collaborative effort. It's producing very favorable 
results, and this budget request will ask for an extension of 
that program.
    I also want to build on this concept for this has worked 
out very well where we have hazardous fuel issues, but there 
are parts of the country where we have forest health issues 
that I'd like to propose doing a pilot approach and probably 
five or six projects across the country in areas outside of the 
hazardous fuel situations where we have a fire dependent 
ecosystem, where we can show we can produce the same type of 
results by making a multiyear investment on larger landscapes 
to address forest health and to sustain our industry.
    This budget will also allow us to continue to build our 
support addressing hazardous fuels. We'll be able to treat 
another 1.7 million acres in our Wildland Urban Interface. We 
deal with 58 million acres of Wildland Urban Interface.
    And Senator Cantwell, her facts and figures about how many 
homes we have in the Wildland Urban Interface just stresses the 
point why it's so important for us to be able to move forward 
with that.
    Once again, our budget request is asking for a shift in how 
we deal with fire suppression funding. It would allow us to 
budget for 70 percent of suppression costs within our budget 
and then 30 percent of those costs would come out of the 
Disaster Relief Fund. That equals one percent of our fires. 
We'll continue to suppress 99 percent of the fires within our 
budget, but that one percent which we really feel we should be 
looking at these types of catastrophic fires as really a 
natural disaster, and it should be funded out of the Disaster 
Relief Fund. For instance last year our ten largest fires, over 
$329 million. We dealt with over 5,200 fires just on the 
National Forest, but ten of those fires, $329 million. Those 
are the type of fires we feel should be considered a ``natural 
disaster.''
    This approach will eliminate the disruptive practice of 
having to shut down operations and transfer funds come August 
and September. Provide a stable level of funding. Allow us to 
be able to continue to work through those months, so we can be 
more proactive to address these concerns.
    The other parts of this budget is that, you mentioned with 
Land and Water Conservation funding, we again are proposing to 
move forward with those programs and really target properties 
where there is strong public support. In every case it reduces 
our management costs by acquiring these properties. It also 
assures public access will be able to be guaranteed in the 
future. It allows us to be able to improve the overall 
watershed, you know, conditions. With our Forest Legacy Program 
it allows us to help people to keep their private lands 
working, to keep their private forested lands working.
    We also are requesting some additional funds to deal with 
the deferred maintenance in our recreation facilities, roads 
and also on trails.
    We also want to continue our work to expand and build on 
wood markets. With the Secretary's proposal on green building 
initiatives to continue our work around biomass and we're also 
asking for additional funding for forest inventory and 
analysis. That is the data that every state uses, that industry 
uses, to be able to have the information to be able to back up 
the investments we need to make in our integrated wood products 
industry, and it gives us the information to really understand 
what we need to be doing on the landscape to address the 
overall forest health concerns.
    Then yes, once again, we've included the funding for a 
framework around Secure Rural Schools. It's just essential we 
find a way to be able to extend this program. It's proven to be 
very successful in the past, not only the funding that goes to 
the counties and the boroughs for their schools and roads, but 
also in Title II. It provided a significant amount of funding 
where we worked with the counties to be able to move forward 
with restoration projects and has been proven very successful 
to eliminate a lot of the controversy and in my way, some of 
our best collaborative work has come through the RAC Committees 
that are established under Secure Rural Schools.
    Thank you again for the opportunity to be here, and I look 
forward to answering your questions this morning.
    [The prepared statement of Mr. Tidwell follows:]
    
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    The Chairman. Thank you, Chief, and since we have so few 
members here we will probably have an opportunity for several 
rounds. Senator Cantwell had to excuse herself to go to another 
markup, but she will be back. So we will be going back and 
forth.
    Chief, I was listening to your comments and appreciate what 
you are saying about forest health and what we need to be doing 
to address the fire borrowing. As I mentioned in my opening 
statement, I am clearly with you on that. What I did not hear 
was what we are going to do about timber harvest.
    We are talking about everything else on our national 
forests. The national forests that are supposed to be used, be 
managed, for multiple use. Well, multiple use, last time I 
checked, included harvest. So I want to talk about that part of 
it in my first round here because I'm just concerned that, 
again, when we talk about this transition to second growth and 
this proposal that the Secretary has and that you are tasked 
with implementation it's not something that can actually bear 
fruit.
    Until we passed the Sealaska Lands bill last year the CMAI 
requirement of the National Forest Management Act prohibited 
timber harvest on the Tongass until the timber had reached its 
so called rotation age, and the rotation age for the Tongass is 
90 to 100 years depending on where you are. Since we really did 
not see significant timber harvest in the Tongass until the 
1960s, the harvest of young growth ordinarily would not be 
allowed under the National Forest Management Act for another 30 
to 40 years.
    You have also got a situation where, in the 60s when we saw 
most of that timber harvest, it was along the beaches, it was 
along the streams. So harvest of any of the young growth timber 
is not going to be permitted in these areas because of the 
Tongass Timber Reform Act and the 2008 Forest plan 
restrictions. The oldest of the young growth isn't available 
for harvest, not withstanding this departure from CMAI.
    So how do we get to what you are talking about here to 
really see any viable harvest of second growth that will be 
available in this time period when you are talking about this 
transition? It just does not add up. I can understand on paper 
what it is that you are looking for, but in the Tongass, given 
the nature of what we are dealing with, how do you make this 
work?
    Mr. Tidwell. Well, Madam Chair, first of all when I look at 
the progress we've been making over the last few years I feel 
good about the progress we're making. When I look back----
    The Chairman. Describe to me the progress because--
    Mr. Tidwell. Well----
    The Chairman. People in Southeast Alaska do not feel like 
there is a lot of progress. A lot of our small operators are 
looking and saying, I'm out of here. They cannot keep people on 
a payroll if they do not have logs in their yard. So where are 
we on progress with that?
    Mr. Tidwell. So with what we're proposing in our FY '16 
budget nationally our level of harvest will have gone up 33 
percent over the last, about, six years.
    The Chairman. Are we talking the Tongass?
    Mr. Tidwell. No, we're talking nationally.
    The Chairman. But we are not talking the Tongass. I want to 
talk the Tongass.
    Mr. Tidwell. Well----
    The Chairman. Because this is my state's or used to be my 
state's economy, but now there is no economy down there 
anymore. You are talking about this transition to second growth 
and there is no way, at least in Southeast Alaska, at least in 
the Tongass, our nation's largest national forest, that we are 
seeing progress. I want you to define progress for me to the 
people of the Tongass.
    Mr. Tidwell. Well the progress, I think, as you look at 
what we've been able to accomplish, you know, the last couple 
years. We are putting up more. It's not adequate.
    The bridge timber we talked about to be able to provide the 
bridge until we can move into the second growth. We were able 
to get the Big Thorne sale out last year. We're optimistic 
we'll be moving forward with it this year.
    The Chairman. We have got a little bit of an ESA issue with 
Big Thorne. You and I both know that. So to say that we have 
got it out there----
    Mr. Tidwell. We're working----
    The Chairman. And it is going to be this big bridge out 
there. The people on Prince of Wales are not so optimistic 
about this right now.
    Mr. Tidwell. Well, Senator, I'm going to remain optimistic 
based on the work that we've done to be able to address the 
concerns with species. At the same time we're going to be 
moving forward with additional sales this year. We're going to 
be moving forward with Wrangell, with Saddle Lakes.
    The Chairman. What will those sales yield us in terms of 
board feet?
    Mr. Tidwell. We're going to put another 70 million board 
feet up for sale this year, and then the same thing the next 
year and maybe a little bit more. The Kausko sale with the 
Sealaska bill--and I do want to thank you for getting that 
through because it does help us to address the CMAI issue. It 
will modify the Kausko sale, so we'll have to put a little more 
work into that before we can move forward with it.
    But we're going to be moving forward with those. We are 
planning to do the bridge, what we call the bridge timber, 
until we can get to second growth, and there are areas in 
that--you know, we worked--we've actually been using some of 
the examples of Sealaska as put forward with some of their 
sales to be able to show that there is a market for the second 
growth.
    It's one of the things that, not only the Forest Service 
wants to move into this, but you see that Sealaska also wants 
to move into developing the markets for second growth. We're 
going to continue to put up our bridge sells, and as we begin 
to start putting up second growth--we had a small second growth 
sale last year. We're going to have some more small sales this 
year. Next year we'll have a larger second growth sale. So 
that's the transition.
    It's also essential that the Advisory Committee that, once 
again, I'm confident that that Advisory Committee is going to 
come up with some very good recommendations about what should 
be the land base as we move forward with second growth. What 
are some of the guidelines that people can maybe agree to about 
how to move forward? What are the timeframes? I'm optimistic 
that that Advisory Committee will provide us with a 
recommendation that could be one of the alternatives that we'll 
look at as we amend the forest plan.
    So that is our path forward, and I'm going to remain 
confident on the Big Thorne until otherwise. At the same time 
we are moving forward with additional sales this year.
    The Chairman. Chief, I have let you go over two minutes 
because I wanted to actually hear if there would be anything in 
your statement that I could believe was going to provide hope 
that we're going to see something different out of the Forest 
Service for the people of the Tongass. Maybe two minutes wasn't 
adequate to let you explain it, but I don't think you were 
offering anything more than you have which is nothing, which is 
nothing to the people of the Tongass.
    Now, I am going to have an opportunity for a second round 
here to talk about some of the retooling. I want to talk about 
Secure Rural Schools because right now I've got an industry 
that is not confident of their future. They've got to figure 
out how they're going to keep the people who want to live and 
raise their families in the Southeast, how they are going to 
find some other work.
    I am not encouraged this morning, and I don't think the 
people in my state are encouraged this morning.
    With that I'll go to my friend from New Mexico.
    Senator Heinrich. Thank you, Chairman.
    First, Chief, I want to thank you for the work around the 
transition for the Valles Caldera National Preserve and all the 
effort that the Forest Service has put into that. As you know 
that CFLRP work there is the foundation on which we can then do 
the Santa Fe National Forest CFLRP work in the surrounding 
Jemez Mountains. It's incredibly important for the Jemez.
    I really appreciate your staff's work, together with the 
Park Service, to resolve those transitional issues and to keep 
that local, tribal contractor in business so that we continue 
to have that capacity to then put them to work on the Santa Fe 
National Forest areas as they finish up their NEPA process. I 
think that's really important, and I want to say thank you for 
that work.
    I also want to commend you for the increase in CFLRP. That 
funding and that program have been incredibly successful at 
reducing hazardous fuels, at restoring watersheds, at reducing 
the conflict that we've seen in our national forests. It is a 
big piece of how we get ahead of the fire curve.
    Speaking of fire, your budget request includes reform of 
how we budget for the largest, most catastrophic and expensive 
fires in the National Forest system. That is a reform that has 
been driven on a bipartisan basis by a number of the people on 
this Committee. It's something I strongly support. In New 
Mexico we know we need to spend more resources restoring our 
forests to a healthy condition so that we can spend less time 
and effort and resources fighting the huge, catastrophic fires 
that result from unhealthy forests.
    If the proposed fire budget reforms were passed, how would 
that impact funding for hazardous fuels reductions in both 
watershed and watershed restoration in New Mexico and other 
Western states?
    Mr. Tidwell. Well, Senator, if we're able to pass 
legislation to address the fire suppression issue it will, once 
again, eliminate the need to transfer funds in August and 
September to allow us to continue to be able to do that work. 
It also allows us in this budget to request the same level of 
Hatfield's funding that we received in the past. Last year was 
a significant increase of over $50 million, and we really 
appreciate the Committee's support on that.
    It allows us to request additional funding to do more 
forest restoration. We have countless examples, many in your 
state, where by getting in there and thinning out the forests 
we not only can reduce the threat, but we reduce the severity 
of wildfire. It is what we need to do. We just need to find 
ways to be able to continue to expand on that work. The other 
thing it will help us is to be able to move forward with the 
new Farm bill authorities because, once again, we will not have 
to worry about having to stop and shut down operations.
    Senator Heinrich. Well, I appreciate your focus on it. I 
couldn't agree more. And we've seen around the state in the 
Cibola in Western New Mexico. It's a great example, but in many 
places around the state, we simply don't have the big old 36-40 
inch, DBH trees anymore in New Mexico. Being able to retool and 
then focus on these thinning projects has been key to 
sustaining what industry we have and making those fires much 
more manageable and much more like what they were historically 
when they served such an important ecosystem function within 
our Ponderosa Pine forests.
    Shifting gears just a little bit. I have heard from 
constituents who have faced some pretty severe obstacles in 
applying for recreational special use permits on national 
forest. I know firsthand how challenging that is having run an 
organization that relied on those special use permits to get 
kids into the back country for educational purposes. We also 
are seeing a large number of veterans, a large interest in 
getting veterans, into our national forests for therapeutic 
reasons.
    One of my constituents, who is a veteran himself and runs a 
business that provides those sort of therapeutic outings for 
veterans recovering from PTSD has been told by the Cibola 
National Forest that they won't even begin to consider his 
application for his permit until 2016 because they lack the 
staff. How does this budget address the backlog in recreational 
permit review and is the backlog a matter of funding or are 
there other obstacles that we can help with to get to more 
timely decisions on those?
    Mr. Tidwell. Well this budget request does ask for some 
additional money in recreation that will help address that 
backlog, but we also need to look at our permitting process to 
find some ways to put more efficiency into that, especially 
around, not only with outfitter and guides, but also with folks 
who want to take out youth.
    Senator Heinrich. Right.
    Mr. Tidwell. And to find, maybe, a different mechanism to 
be able to deal with that in a way so that there's certain 
areas where we need the skills of outfitters and guides. 
There's other areas that people can take youth out to 
experience the outdoors for the conservation education, and it 
can be, maybe, a different experience.
    So we want to work to come up with an approach that will 
allow us to be able to address that a little bit faster, be 
more effective. When I hear not until next year we can even 
address it, I hate that. I understand why our folks would say 
that because of the reduction of our staffing, but it's another 
example of what's happened to our agency staffing with the cost 
of fire suppression.
    Since 2003 cost of fire suppression, the ten year average, 
has gone up $740 million. It's--the result of that. We reduced 
our staffing and our national forest system staffing by 35 
percent. Foresters, 49 percent. When I think about the work our 
folks are getting done every year, I'll tell you it's just so 
impressive, but at the same time we just have to find a fix.
    Senator Heinrich. Yeah.
    Mr. Tidwell. Because the cost of fires, even though doing 
everything we can are going to continue to increase, especially 
in the Wildland Urban Interface. We've got to find a way to fix 
that so that we don't continue to have to look at moving funds 
from other programs in a constrained budget.
    Those are the things we're looking at to improve our 
recreation services immediately, but this fire suppression fix 
is a long term.
    Senator Heinrich. I apologize, Madam Chair, for going over. 
I look forward to working with you on that issue. We are 
working on legislation.
    I know firsthand the old system really treats the Boy 
Scouts the same way they treat a hunting outfitter guide, and I 
think we need some more nuance. We need some more efficiency.
    And in a state where 68,000 people work in the outdoor 
recreation industry, we can't afford to be telling a veteran-
owned business like that wait until next year. Thank you.
    The Chairman. Thank you, Senator Heinrich. Senator Daines.
    Senator Daines. Alright. Thank you, Madam Chair.
    Chief Tidwell, thank you for being here today.
    Montana used to boast a robust timber economy. However 
since the late 80s harvests on our national forests are down 82 
percent, and we've lost now nearly 30 mills. In fact, of the 11 
surviving mills many workers there today are facing layoffs and 
reduced hours. As we look at strong demand in the lumber 
industry we can't get enough logs.
    Meanwhile our national forests are suffering from insect 
infestation, overgrowth and, as you described, the risk to 
catastrophic wildfire. The deteriorating health of Montana's 
national forests jeopardize our public safety, our watersheds, 
undermines recreational hunting and frankly, is harmful to 
habitat.
    Chief Tidwell, I hope we can work together to find some 
workable solutions trying to crack this nut that significantly 
increases responsible timber harvest and improve the forest 
health across Montana.
    In fact, just last week I met with a variety of 
stakeholders regarding National Forest policy. It was a recess 
week in Washington, and I was back home in Montana. We had 
conservation. We had sportsmen. We had mill workers. We had 
members from the wood products industry. One strong message I 
heard from these folks, from a variety of directions, is the 
impact of objections and lawsuits in obstructing these much 
needed timber sales and these collaborative projects. In fact, 
to hear that our mills today, the surviving mills, are 
receiving logs from Oregon, from Washington, from Canada, from 
Wyoming, when we're surrounded by millions of acres of national 
forests and much of it dying and still harvestable, to me, is a 
tragedy.
    When I was growing up in Montana in Bozeman, my home high 
school was a double A high school, the largest classification 
in sports. The Libby Loggers up in Northwest Montana, they were 
a double A school when I was going to high school. Today the 
Libby Loggers, they've dropped to A and just going into this 
year now they're a Class B high school. There's a reason they 
call them the Libby Loggers. This is where the heart of our 
logging industry is in Montana. There's not a single mill in 
Lincoln County today as a result of what's going on in our 
timber industry. In fact, somebody said last week perhaps we 
should rename the Libby Loggers and call them the Libby Lawyers 
because that's what's going on now. The timber industry has 
been stopped by this habitual litigation.
    So my question is how are these objections and litigation 
affecting the Forest Service's ability to complete timber 
projects in Montana in a reasonable time period?
    Mr. Tidwell. Senator, since we've moved from the old 
appeals process to the objection process that actually is a 
better way to move forward. We're able to address the concerns 
before we make the decision, and it's proving to be an 
effective approach. However, it does take some time. The 
litigation definitely does impact. It's not just the litigation 
when we get a temporary restraining order where we have to stop 
and wait. Every time we get a lawsuit the same staff that would 
be preparing for the next project have to prepare to go to 
court. We pull the information together for our attorneys to go 
to court. For me, that's probably the biggest impact to 
litigation because we don't have a separate staff just to be 
able to put together the information so the attorneys can go to 
court over it. It's the same folks that would be working on the 
next project. We're very successful. We win the majority of our 
cases, and I think up in your part of the country, the last I 
heard, something like 17 and 19, the last cases we won. Even 
when we win, it still has that impact because it slows down the 
development of the next project because we only have one set of 
staff to be able to deal with it.
    Now we are making good progress with the collaborative 
efforts in your state, and we're seeing that. I do understand 
the frustration where you have that strong collaborative and 
people reach agreement about the project going forward.
    I can use the Colt Summit a couple years ago where we had 
really tremendous support across the board from the 
conservation community, the environmental community and of 
course, the county and the state. Then we got sued, and we went 
through the process. Yes and we finally implemented the 
project, but it took another year or so to do it. So I 
understand that frustration. The solution I do believe, is to--
--
    Senator Daines. Go ahead. The solution is?
    Mr. Tidwell. The solution, I think, is to continue to find 
ways to support these collaborative efforts so that we can move 
forward in a way to actually implement the projects.
    I understand from time to time we're going to be sued. and 
if we ever do anything that's wrong, I'll understand that. I 
understand that's part of the process.
    Senator Daines. Quickly to this insect infestation issue.
    Our governor designated five million acres in the Montana 
National Forest Service that's eligible to be managed under the 
streamline processes established in the 2014 Farm bill. Based 
on feedback from Montanans I heard, I heard all about it last 
week. I'm concerned the Forest Service is not moving fast 
enough to implement this policy. I think it's good policy that 
came out of the Farm bill. This is exactly the kind of 
solutions we need to start moving on harvesting dead trees. 
That's what we're asking for right now.
    I anticipate Congress funding Fiscal Year '16 to help 
implement this program, but can we expect some meaningful 
results on the ground now between today and October when the 
new fiscal year begins?
    Mr. Tidwell. Yes, Senator. In fact the first project that 
we used under the Farm bill authority for a CE. We actually put 
the decision out last December in your state. I know in that 
region they planned another five to six projects this year. 
They're moving forward with both the CEs and also using the 
expedited procedures for EAs and EISs. So we are moving out, 
and I want to thank the governor for his approach to be willing 
to put some state funding to work with us on that to be able to 
help us get more work done.
    We're also looking forward to using the Good Neighbor 
Authority where we can work closely with the states to be able 
to use some of the state resources to help us to be able to get 
more work done. So we are moving forward on that. And FY '16, I 
think, is when you'll really see probably the big increase in 
the number of projects where we'll be using those new 
authorities.
    Senator Daines. Okay. Thank you.
    The Chairman. Senator Warren.
    Senator Warren. Thank you, Madam Chairman.
    According to Forest Service's assessments, more than half 
our nation's fresh water comes from forest ecosystems. 
Agricultural Secretary Vilsack has noted that clean, healthy, 
forests are vital to our efforts to protect America's fresh 
water supply.
    Chief Tidwell, can you just explain a little bit about why 
that's so?
    Mr. Tidwell. Well, to provide clean water you need healthy 
forests because it protects the soil. It has the over story 
plus the under story so that when we do have disturbance events 
like big rains or floods, wind storms, etcetera, having that 
healthy forest maintains the ecosystem so that the system can 
filter the runoff and produce that clean water.
    It's one of the reasons that you'll see--especially when 
we're working with EPA about how to continue to make sure we're 
providing clean water. There is a general understanding we have 
to start with healthy forests. You know that as well as anyone 
from your state.
    Senator Warren. Yes, thank you, sir. Let me then follow up 
on that by asking I know you're concerned about how climate 
change threatens our forests and threatens the many benefits 
that they provide to Americans including clean water. You've 
testified before this Committee and I think I've got your quote 
here that, ``climate change is already altering our nation's 
forests in significant ways and those alterations are likely to 
accelerate in the future.'' What I'd like to ask is how does 
climate change affect the clean water benefits that our forests 
provide to our communities?
    Mr. Tidwell. Well, if we lose our forested ecosystems from 
any disturbance event, but especially what we're seeing with 
the shift in climate, we're going to lose that filtering 
process to be able to provide the clean water. That's why we've 
continued to invest in our research and development part of the 
agency so that we understand the effects of a changing climate 
on vegetation and what we need to do differently to be able to 
address whether it's a threat of wildfire, whether it's the 
threat of insect and disease, whether it's the threat of more 
invasives.
    It seems like every invasive that comes into our ports, 
especially here in the East, that a warmer climate seems to 
provide a more favorable environment for those species.
    Senator Warren. Yes, we evidently are very hospitable to 
these----
    Mr. Tidwell. Yes, the Emerald Ash Borer is a perfect 
example. It came into the country over 30 years ago and it 
pretty well just stayed in the mid part of the Atlantic Coast. 
As we've seen the weather change, the climates change, the 
Emerald Ash Borer has now made it to Canada because of the lack 
of having, really, any long, cold winters.
    Senator Warren. Can you talk just a little bit about what 
the Forest Service is doing right now in response to climate 
change?
    Mr. Tidwell. Well, what we've done is we've looked at each 
one of our national forests and we've done an assessment to 
first of all, make sure we understand the current conditions, 
and then to make sure that our staff understands the things 
they need to be looking at into the future.
    When we talk about restoring the forests it's not to 
restore it to something in the past. We need to be restoring 
the forest to the future. And in some situations to really look 
at if there's going to be a different species composition of 
the forest as we're looking out 20, 30, 40 years in front.
    So that's where we rely on our scientists to provide the 
science and then for our land managers to use that in designing 
the projects as we go forward.
    Senator Warren. Well, thank you very much, Chief. You know, 
our forests face a number of threats and climate change is a 
very big one. Protecting our forests from threats has so many 
benefits, soil erosion, protect habitats for wildlife, take in 
atmospheric carbon, not to mention providing the recreational 
opportunities and contributing to regional economies, as others 
here have talked about.
    As we've heard, healthy forests are vital to protecting our 
fresh water supply. It makes sense to make forward looking 
investments to address the real threats that our forests face 
today so that our forests can continue to contribute in 
providing important health benefits for all of us and building 
a strong future.
    Thank you very much, Chief, and thank you for your work.
    The Chairman. Senator Capito.
    Senator Capito. Thank you, Madam Chair, and thank you, 
Chief, for being here with us today.
    I'd like to talk about one aspect of your area of 
responsibility that is impacting our state right now. I'm from 
West Virginia, and the construction and maintenance of adequate 
pipeline capacity is critical to our nation and our state. We 
have a shale gas boom in the Marcellus shale in West Virginia 
and that's providing us with amazing opportunities, but we 
can't do this without pipelines.
    In West Virginia at least four natural gas pipelines are 
being discussed. One such pipeline, I hope you're familiar with 
this, is the Atlantic Coast pipeline which is going through the 
Mon Forest in West Virginia, a 17.1 segment will go through 
Pocahontas and Randolph counties.
    I think they're having, as part of the review process, 
community meetings and review. But the Forest Service has to 
make a separate determination as to whether to issue a right of 
way permit to conduct, operate and maintain a natural gas 
transmission project.
    I would like to know if you are working with FERC and DOE 
to examine the importance of proposed pipelines and what this 
process is, in terms of your role in the Forest Service?
    Mr. Tidwell. Well, Senator, we do work with FERC on 
projects and also Department of Energy. We have many, many, 
thousands of miles of pipeline that cross the national forests, 
so this is something that we deal with on a routine basis.
    As part of the analysis, we'll look at the location. 
Where's the best location to minimize impacts. That's a thing 
that we look at. We also look, if possible, to minimize the 
amount of road construction that needs to be done because often 
with a pipeline they can just use the construction zone as 
their access point.
    Those are the things that we look at to minimize the impact 
but then also to ensure that everything is being considered so 
that pipelines are located in a place where they'll have less 
of a potential problem in the future. It's one of the things we 
work very closely with the proponent, but then also with the 
public, to be able to get the public's concerns and be able to 
address that. That's the path we'll move forward with this 
pipeline, like we do it for all.
    Senator Capito. Right. I think that's the process you're in 
right now, and I appreciate that.
    I'd like to talk about the Secure Rural Schools. I've been 
a supporter of that. I have, obviously, some rural counties in 
West Virginia. Pocahontas County, for instance, has gone from 
$581,000 a year to $95,000; Randolph County, $383,000 to 
$62,000; Webster has lost $176,000; Pendleton County, $171,000; 
Tucker County, $170,000. I know this doesn't sound like large 
figures but when you're trying to----
    Mr. Tidwell. Right.
    Senator Capito. In a rural area afford your schools it 
really impacts the schools. There are long bus rides, and it's 
an expensive system to maintain in a rural area like this.
    I would like to work with you to try to address this issue, 
so what suggestions would you make at this point for us besides 
reauthorizing, so we can make sure that these school systems 
which are really struggling and the county systems are able to 
rely on us for reliable funding?
    Mr. Tidwell. Well, first of all, Senator, there's 
tremendous urgency around this.
    Senator Capito. Right.
    Mr. Tidwell. As you point out that the impact of this. 
We've proposed a framework in our budget request which provides 
funding. We really want to work with the Committee on the path 
forward, but I think the past with the titles of the past 
Secure Rural School authorizations worked very well. There's a 
lot of benefits for all three of those titles, but it's just 
essential that we find a way to move forward and get this 
reauthorized just as quickly as we can.
    I don't care what county, I mean, for some counties there's 
larger levels of funding. But when I look at the impact and how 
severe it was from one year to the next.
    Senator Capito. Yeah.
    Mr. Tidwell. Without any time for any planning, etcetera, 
it's essential that we just find a way to get this reauthorized 
as soon as we can, and we want to do everything we can to work 
with the Committee to find a path forward.
    Senator Capito. I'm sure the Chair intends to work 
diligently on this, because I think there's a lot of bipartisan 
agreement that this needs to move forward.
    I'll just make a quick comment and then I'll thank you 
again.
    You've mentioned a lot about the cost of fire suppression. 
I think while we haven't been, on the East Coast or at least in 
West Virginia, the victim of large and broad wildfires, we have 
been the victim of the shifting of the funds. So I would 
encourage and work together to try and meet that challenge. 
Thank you very much.
    Mr. Tidwell. Thank you.
    The Chairman. Thank you, Senator Capito, and know that this 
is a priority, certainly, to figure out how we deal with Secure 
Rural Schools. I know that Senator Wyden is very keyed in on 
this, and I look forward to working with him and with you as 
well. Senator Wyden.
    Senator Wyden. Thank you very much, Madam Chairman. I 
appreciate that. And Senator Capito, we're very pleased to hear 
your comments. I know you joined as a co-sponsor of our 
legislation this week, the bill that I introduced with Senator 
Crapo. We wrote that bill in this room in 2000.
    Chief, thank you for your continued support and persistence 
in speaking up for it. I'll just very quickly mention I do hope 
that we can make mandatory the PILT program as part of it 
because that helps give us a broader base for it. Senator 
Capito made, I think, essentially that same point.
    We're looking for ways to grow our coalition for Secure 
Rural Schools, and making PILT mandatory will help us do that. 
As you know in the one year reauthorization for PILT we 
basically came up with a process that short changed that 
formula so now we've got frustrated communities about two areas 
of Secure Rural Schools and about PILT. So we look forward to 
working with you on that.
    Let me talk to you about water for a moment. As you know my 
constituents are really on the cusp of coming up with a fresh 
approach for dealing with these contentious water battles, and 
we're having them all over the West. Again, this Committee 
played a leading role because essentially out of our work in 
the last Congress we came up in the Klamath Basin with 
something that really hadn't been done before and that was a 
task force that cut the cost of the program, eliminated some of 
the political battles between folks in different parts of the 
Basin. We felt we were really right on the cusp of being able 
to enact it into law.
    Most recently we have bumped up against a serious problem 
involving the ownership of the Mazama Forest. As you and I have 
talked about here in the last couple of days, the Klamath tribe 
has, as I've indicated, continually worked in good faith. They 
have concerns about what's happened. We're going to have to 
find ways to deal with it, and make sure the tribes are treated 
fairly. I would just like to have, because I know people at 
home are listening to this, your thoughts on this and the 
commitment you gave to me, that you'll work with us to make 
sure the tribes are treated fairly because this will be key to 
actually getting this passed into law. I introduced it in the 
last session of Congress. Senator Merkley with the California 
Senators, we want to get it done this time. So having your 
commitment and having you on record today would be very 
helpful.
    Mr. Tidwell. Well, Senator, we are committed to work with 
you and Senator Merkley to be able to find a solution, and I 
look at the benefits here providing a solution for the tribe 
and at the same time to deal with the water issues that are 
essential for the farmers and the ranchers. Once again, we're 
going to be faced with another very, very dry year.
    Then at the same time to be able to factor in opportunities 
for us to increase the level of forest management here. I think 
there's some opportunities here for a very creative approach, 
and it's something that we could look at finding not only to 
address the solutions here but maybe in other parts of the 
country too.
    So we're more than committed to being able to work with you 
to be able to find a solution to this because it's one of those 
issues that you can't change the past, can't change the 
history, but it's an opportunity to, kind of, move forward in a 
way that we can address this in a way that everybody benefits. 
The tribes benefit. The water users benefit. Industry can 
benefit from it. The public, in general, benefits from it. 
That's what I'm looking forward to, and I'll tell you that I 
talked to my staff. They're already rolling up their sleeves 
ready to go to work on this to look at some creative solutions.
    Senator Wyden. Well, thank you, Chief, and this will help 
Oregon. This will help people who live in the Basin. But I do 
think it has the potential to be a model for dealing with water 
issues around the country.
    Let me ask you about one other question before my time runs 
out, and that's the question of fighting wildfires. As you know 
we have a bipartisan bill in the Senate. We have a bipartisan 
bill in the House because the system is essentially broken.
    What we have is a situation where you all don't get enough 
resources in order to deal with prevention, then you have a 
situation where it gets hotter and drier and you have a 
lightning strike and all of a sudden you have an inferno on 
your hands. In effect the Prevention Fund is asked to put up 
money to help put the fire out and the problem gets worse 
because you have shorted prevention.
    We're trying to change that. We have the Administration's 
support so these big fires, these infernos, would get handled 
from the Natural Disaster Fund.
    Tell me what it means to you as we wrap up to have that 
kind of flexibility as the bipartisan bill in the Senate and 
House seeks to do.
    Mr. Tidwell. Well, the benefits of having this legislation 
pass is one, it resolves the issue. It provides stable funding 
for suppression, and we no longer have to start off and 
sometimes in July, but definitely in August, contacting all of 
our units to see what funds are available then start to pull 
that money back to be able to transfer it.
    Even in the very few years that we end up not having to 
transfer, we still have to go through all that work. It shuts 
down operations, it puts people out of work, and most times 
Congress then, sometime in the future, pays the money back.
    So this is your proposal, it was scored neutral by the 
Congressional Budget Office. It's just a better business model, 
a better approach. At the same time, 99 percent of the fires 
will still be covered out of our budget. It's just this one 
percent.
    You had one fire in your state last year. Senator Cantwell 
had one. We had quite a few in Oregon. But just last year the 
top ten fires, $329 million, and that's out of 52,000 fires 
just on the national forest. So we're going to continue to 
suppress 98 percent of our fires where we take initial attack. 
It's just this one percent that really does need to be 
considered a natural disaster.
    Senator Wyden. Thank you, Madam Chair.
    The Chairman. Thank you. Senator Gardner.
    Senator Gardner. Thank you, Madam Chair. And thank you, 
Chief Tidwell, for your time and testimony today.
    Following up on the theme that Senator Wyden was talking 
about, one of the things that we have to work on together, I 
think, is this issue of how disaster designations work when it 
comes to forest fires. The immediate aftermath of the 
hydrophobic soil conditions as it results in flooding and some 
of the damage that can occur to transportation systems, 
drinking water systems and others and making sure that our 
disaster declarations and designations reflect the nature of 
Western catastrophies like a wildfire verses an Eastern 
disaster like a hurricane or something else. I mean, that's, 
kind of, what we have to work on in some of our disaster 
designations and would enjoy the opportunity to work with you 
on that.
    I wanted to also talk a little bit about fire suppression 
issues. As you know the various insect infestations in Colorado 
continue to grow, and the spruce beetle last year alone, we had 
a 22 percent expansion of the spruce beetle infestation, which 
of course, results in greater fire dangers.
    It appears as if the request for fire management within the 
budget for research and development request for fire management 
remains stagnant. Can you talk a little bit about that?
    Mr. Tidwell. On the research and development part?
    Senator Gardner. Yes, for fire management, yes.
    Mr. Tidwell. Yeah, our budget request just reflects the 
constrained budget scenario we work under and where we've tried 
to target some very specific areas of our program to ask for 
additional funding around, for instance, wanting to move 
forward with forest, increasing forest management, but we're 
asking for a continued level with research.
    We're also contining to expand our partnership with 
universities. In fact, some work that's potentially going to 
occur in your state about how to expand and leverage the 
funding we have to be able to work with others to be able to 
continue to do that essential research.
    There's no question, we could always use more, broadening 
every program and every research area, but we feel that this is 
an adequate level to continue the research that's ongoing to be 
able to understand and address the problems that we're going to 
be facing.
    Senator Gardner. If we have time we'll get into a little of 
that work of whether it's the Colorado Forest Restoration 
Institute, the Southwest Ecological Restoration Institutes, I 
would love to continue our conversation on that.
    In line with the wildfire issues though, I know we're 
talking about various changes to the funding of wildfire 
efforts and activities. In Fiscal Year 2016 the FLAME account 
is not included in the budget request, I believe. At $303 
million in that account from last year what happens to that 
money going forward, that $303 million that was in the FLAME 
account?
    Mr. Tidwell. You'll see in our budget request that we're 
maintaining the increase in hazardous fuels funding that we 
received last year which is a little over $50 million. We're 
asking for another $20 million in our CFLR projects which helps 
us to address hazardous fuels and restore forests. We're also 
asking for another $27 million in our integrated resource 
restoration that allows us to be able to restore our forests, 
reduce the threat.
    And then also, the ten year average, once again, it's gone 
up $115 million, so just 70 percent of that is about $80 
million. You add those numbers up, plus you look at our overall 
budget request is actually $130 million less than last year. 
That basically is that $300 million difference.
    That's our approach so we can be more proactive and at the 
same time understand the budget issues in this country and 
have, I think, somewhat of a constrained budget. But there's 
where we're looking for that flexibility so we can be more 
proactive.
    Senator Gardner. And two additional questions on the Ski 
Area Water Rights issues and the Ground Water Management 
Directive. Where do we stand right now with the Ski Area Water 
Rights Directive?
    Mr. Tidwell. Well, we've had good meetings and a lot of 
good public comments so that we're in a place to solve this 
issue in that we're not going to be--we're going to address it 
by just working with the permitees to provide--it will be up to 
the ski areas to provide the adequate water that's needed to 
operate their facilities, and then when that permit transfers 
it will be up to the new operator. If they want a permit, 
they're going to have to be able to show they have water.
    I feel that we've basically resolved this. We've got a 
couple small issues we have to work out on how, just the 
mechanics of it, but I think we're real close to having a final 
solution on this that will work for everyone.
    Senator Gardner. Under the original proposal, I believe, 
it's a violation of both Colorado Water Law and the federal 
Takings Law, Constitutional law. Do you think the proposal 
violates the Fifth Amendment?
    Mr. Tidwell. What we've been operating under since 2004 
which was an agreement we worked out with the ski areas at the 
time, everyone was happy, and we actually thought that it would 
work.
    Senator Gardner. Everyone was happy after that agreement?
    Mr. Tidwell. Well, yes, in 2004 the NSAA worked with us to 
be able to put that together, but then we found as we were 
implementing it that there was conflicts with state law and 
that was the reason we had to go back and take another 
approach.
    It's taken some time, a lot of discussion, a lot of 
dialogue, but we're now finally in a place that, I think, it 
will resolve this once and for all. It's my understanding that 
we made good progress, and NSAA is in agreement that this is a 
good approach.
    Senator Gardner. Well, I look forward to talking with you 
because I believe it's also a violation of Takings, language in 
the Constitution, the Fifth Amendment.
    Last year the Forest Service released a proposed directive 
on ground water resource management. The Forest Service Ground 
Water Directive obviously created a great deal of concern for 
states like Colorado, including organizations like the Western 
Governors Association, the National Water Resources 
Association, talking about concerns both the substance of the 
rule and the lack of stakeholder outreach that went into its 
development.
    I'm very concerned about what this means and how this 
directive was put together, and I hope you would commit right 
here to improving your outreach to stakeholders and to working 
with the states and water users to address their concerns.
    The second part of this question is I'd like to learn more 
about how this water directive, how this ground water 
management directive would work in areas like national 
grasslands where you have checkerboard ownership, issues like 
the South Platte water basin, the alluvial aquifer and the 
connections between the two. I think that's opening up an 
entire area that has a lot of people concerned.
    Mr. Tidwell. Well the proposed directive is something we've 
been working on for many years to have a consistent approach on 
how to evaluate the impacts of our decisions on ground water to 
prevent contaminating ground water from our decisions or 
impacting other people's water, their water rights, with our 
decisions. So we've never had a consistent approach, and 
there's been times when we've been inadequate level of analysis 
and we've gone to court. There's been times when our actions 
have contaminated ground water, and we've been sued. I want 
to--we need to have a systematic approach so that we minimize 
any chance of contaminating ground water. When our decisions 
will have an impact on water rights, someone else's water, we 
need to disclose that.
    Sometimes we don't have any choice. We can mitigate as much 
as we can, but there's sometimes we may, for instance, with the 
mine proposal. We make a decision, a decision we have to make, 
need to make, and it may impact water. So we want to be able to 
work with the states.
    So where we are today is that we've stopped. We're going to 
go back. We're going to sit down primarily with the states, 
state water engineers, and to really sit down with them and get 
their ideas about how we can do this and ideally how we can do 
it together. There's some opportunities where some states are 
well positioned to provide this for us, to be able to do the 
analysis that we can use. That's where we're at right now. 
We're going to stop. We're going to continue to work with the 
states until we figure out the right way to go forward with 
this.
    In the meanwhile I expect in some forests we're going to 
probably do more analysis than we need to. Hopefully in some 
places we won't do less and end up in court again, but that's 
our approach right now. It's something we've been working on 
for years.
    Senator Gardner. What about stakeholder outreach? Will you 
commit to increasing more?
    The Chairman. The Senator's time has run out.
    Senator Gardner. Thank you.
    The Chairman. Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Chief Tidwell, I apologize for having to run out to another 
committee markup. I very much appreciate you being here today.
    My colleague, Senator Wyden, had a chance to talk to you, 
in more detail about his fire budgeting proposal, S. 235. 
Obviously, we want to get it enacted. If we don't, we'll be out 
of funds again this year.
    You and I had a chance to talk about the devastation that 
happened from the Carlton Complex Fire. Again, thank you for 
your discussions yesterday and today about that. I am very 
interested in what we're going to do, the Forest Service and 
USDA, on moving ahead on flood control with the Burned Area 
Emergency Response teams. I definitely want your help and 
support in those communities in preventing the movement of the 
large amounts of ash that are there, which could caused 
flooding in the area.
    What are you thinking about pilots? Are you thinking about 
using community wildfire protection plans to help us alleviate 
these kinds of predicaments in the future? When communities 
find themselves overrun by all of this, are you thinking about 
a way to help bring order into communities after these events, 
like the Carlton Complex Fire?
    Mr. Tidwell. Well, Senator, first of all we are going to 
continue our restoration work on the Carlton Fire. We did the 
work last year. We'll continue to do more work here to 
stabilize some key areas to reforest, replant some areas and 
also continue to do some additional road work to stabilize 
that.
    I guess that we were somewhat fortunate we have a pretty 
shallow snow pack this year and so we may not be subject to as 
much flooding as we could have been. I say that there's some 
benefits and not with that because it sets us up for another 
potential dry year.
    But your point about--in our community wildfire protection 
plans they're all focused on the work that we need to put into 
place to prevent the catastrophic loss of homes and impact on 
communities. You bring up a good point about what we also need 
to be thinking about when we do have fire because no matter 
what we do we're going to continue to have large fires, and we 
can make steps so that we can definitely reduce the number of 
homes that are lost, reduce the severity of wildfires. But 
we're going to have large fires.
    So there's probably another component of this about what 
else do we need to have in place so that, not only before the 
fire, the actions we need to take, but also during the fire, 
the actions that we need to take. But also how can we make sure 
that we have thought out what we need to do following that 
fire. And we worked quick with our Burned Area Emergency Teams. 
They come in and quickly analyze the area and put some 
emergency steps into place.
    Often the restoration then takes several years to follow 
that. It's an opportunity for us to really think about after 
the fire, which is also something we need to focus on. It's 
something to really look at with our partners and our 
cooperators, the private landowners and the communities.
    So as much as I wish I could say yeah, if we can restore 
our forests, reduce the hazardous fuels, we're not going to 
have these scenarios. We're still going to have large fires in 
this country from everything that we're seeing, but we can 
reduce the threat to communities. We can definitely reduce the 
numbers, the thousands of homes that are lost to wildfires 
every year, but we're still going to need recovery efforts.
    Senator Cantwell. Well, I think the entire Okanogan, which 
is what we refer to as the region there, would gladly 
participate in ways to increase the work in the community 
wildfire protection plans and what we need to do moving 
forward, but I certainly want your help on the emergency 
response teams now for flood control and the community response 
in the area. So we definitely want to work with you on that.
    I think the one thing that we've talked about but maybe 
it's really not been stated so specifically is we're not really 
talking about what we're getting ready for and what we don't 
have resources for and whether they're emergency disasters or 
not. I think the thing here that we saw, at least with the 
Carlton Complex, is this was a weather event. That really high 
winds caused this acceleration. So the question of weather and 
taking into consideration weather patterns as it relates to our 
fire season, I think, is something we're going to have to pay a 
lot more attention to.
    I wanted to ask you about recreation permits. My colleague 
had a chance to ask you about that. Can you just discuss 
quickly about getting nonprofit youth serving groups like the 
YMCA into our national forests and what we need to do to get 
that permit process going so that they can also have access? It 
just seems to me if somebody from the YMCA or YWCA only wants 
to take ten people into the forest service and educate them one 
Saturday morning that they should be able to do that.
    Mr. Tidwell. Yes, Senator. As I described earlier we have 
our outfitter and guide special use process that works very 
well for the outfitter and guides that want to take people more 
into the back country and have quite unique experiences. What 
you're describing, especially with our youth, is really a 
different experience. We need to look at being able to provide 
access so that it's easy for folks to take school kids, YMCA, 
YWCA, up onto the national forest and the grasslands to be able 
to experience that.
    It's one of the things that this coming year, actually for 
the next ten years, working with the Department of Interior 
we're going to try to get every fourth grader out to a park, 
out to a forest for the next ten years to expose them to the 
outdoors, provide an activity for them. At the same time we 
need to find a way to make it easier for school groups, 
community groups, nonprofits to be able to get our youth out.
    Senator Cantwell. Thank you.
    The Chairman. Thank you. And just for my colleague's 
information the Chief is very familiar with the situation that 
we had in a very small community in Southeastern Alaska where a 
day care provider took her young charges out to have a picnic 
in a shelter. It's not even a closed in shelter, just a picnic, 
and she was fined because she didn't have a permit. Now this is 
not how we welcome people to our public lands. So know that we 
want to work with you on that.
    Senator Risch.
    Senator Risch. Were they singing, this land is your land, 
this land is my land, at the time? [Laughter.]
    Chief Tidwell, thanks so much for your service. We really 
appreciate it. On behalf of Idahoans I can tell you that you've 
just been a pleasure to work with, and I find you to be 
reasonable and hopefully continue with that relationship over 
the next 694 days as we move along. I do want to put a couple 
of things on your radar screen.
    First of all I know you were a big proponent of the 
forestry section in the 2014 Farm bill, and we had high hopes 
for the categorical exclusion from the NEPA process in there.
    Well, the first one we tried is the Jasper Mountain 
project. I don't know if you're familiar with it or not. You 
might mark that down. It's about 3,000 acres. They tried to use 
the designation by prescription and a designation by 
description processes to move the thing forward. As fate would 
have it they're high centered with all four wheels spinning now 
because they say they couldn't use those in this particular 
situation, so I'd appreciate it if you'd have a look at that. 
This is something you and I were both excited about, and now 
here we've got the first one and the wheels have come off. So 
if you could take a look at that I would appreciate it.
    The second thing that I think my staff has talked to yours 
and told you that I was going to ask you about this, but in 
1980 the Central Idaho Wilderness Act was passed. You may have 
been living in Idaho in 1980 at the time. In any event, as you 
recall, it was very controversial, but we were patted on the 
head and told that everything was going to be alright. And one 
of the provisions in there was the people who fly into the back 
country. As you know in Idaho, that's a big deal, and there's a 
number of back country airports that have used for decades back 
there. Section 7(a)(1) of the Central Idaho Wilderness Act 
states, ``the landing of aircraft where this has use has become 
established prior to the date of enactment of this act shall be 
permitted to continue.''
    I'm told the Payette National Forest supervisor has 
proposed closing four of those air strips, so you might send a 
little memo when you get back to your desk about that and maybe 
send him a copy of the section because I'm just a poor country 
lawyer, but it seems to me, shall means shall. I know the 
Forest Service hates getting sued, but this looks like one 
that's set up to be a lawsuit if they proceed with that. I 
understand they may not want to do it anymore, but the 1980 Act 
is pretty clear about that. So I would appreciate it if you'd 
have a look at that. Again, thanks for your service. Thank you, 
Madam Chair.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, Madam Chair. Thank you, Chief. 
Thanks for all you do for Arizona.
    We've talked before about this topic. We have the Eastern 
Forest, the White Mountains, where I grew up, that we've had 
the White Mountain Stewardship Contract. It's revitalized the 
private industry in that area and has done some good work. 
We've seen about $130 million in private investment flow in.
    Senator Heinrich and I toured, last April, some of the 
facilities and the mills and what not that are there because of 
the stewardship contract, and steps have been taken to give 
some kind of certainty moving ahead before 4FRI really kicks 
in.
    Mr. Tidwell. Right.
    Senator Flake. There's that gap that we know was there, but 
we're still hearing from private industry, a couple of them in 
particular, that they just don't have the certainty moving 
ahead that they're going to be able to get their product out of 
the forest.
    What is the Forest Service doing to give them the assurance 
that they'll be able to continue? As you know if we lose 
private industry this time, we'll never get it back. We'll just 
never get the investment there, and that's the only way that we 
can get these forests thinned and managed the way they should 
be.
    Mr. Tidwell. Well, Senator, with the 4FRI area we're--I 
think they have just under the 4FRI contract, they have, I 
think, close to 19,000 acres that we've issued task orders on 
that. So there's plenty of work for them to do.
    We're also getting close to be able to address the 
objections that we received on the EIS that cover about a 
million acres of your state and will allow us to be able to go 
forward and do the level of restoration on that type of 
landscape for many years in the future.
    In addition to that to address the concern, there's also 
about 25,000 acres that's outside of the 4FRI and we're going 
to put up another 6,000 acres this year. I know it was really 
tight, especially last year, to be able to provide at the same 
time removing the 4FRI to be able to support the industry had 
come in. With this additional work that we're putting forward 
this year it should put us in a much better place.
    Then as we move forward and once again, the additional 
hazardous fuels funding that we received in FY '15 will allow 
us to be able to put up more sales and not just for 4FRI but 
for also the other parts of your state that we need to move 
forward with. So that level of funding is going to be very--
well, the timing was excellent on it and we're requesting that 
same level again so we can be able to have, kind of, a stable 
program across the country.
    So we're going to be in a better position this coming year 
than we were in the past and to be able to continue to provide 
the work that needs to be done and to keep people employed.
    Senator Flake. With regard to 4FRI since FY '13 there have 
been notices to proceed of about 21,000 acres, but only just 
north of 3,000 acres have actually been treated. What's the 
next milestone for the task orders with and what criteria are 
we using to judge these contractors? They just don't seem to be 
moving.
    Mr. Tidwell. Well, each task order, I mean, it has a 
certain amount of time to be able to start the work and be able 
to implement it. At the same time the 4FRI contractor, I think, 
they too, were waiting to see if we were able to get this EIS 
done, this large EIS, to give them the confidence that they can 
make the additional investments.
    If they're not able to get the work done we'll be able to 
offer these contracts to others who will be able to get the 
work done. You have to give an adequate amount of time, but if 
they're not able to perform on that or if they're not able to 
keep up with the level of work that we're putting out, we'll be 
able to contact with others.
    So we want to be able to not only get the--make 4FRI 
successful, but at the same time to be able to have enough work 
on the landscape and also to use more of these stewardship, 
these long-term contracts, that have proven to be a success. I 
mean, your state was probably our early model about the 
difference that we can make. You personally have seen the 
difference on the ground, but also the investments that are in 
place were because of that.
    We have to be able to maintain that, so we're going to do 
whatever it takes to, not only keep 4FRI going forward, but at 
the same time to be able to get more work available so that we 
can maintain that infrastructure that came in initially with 
our first stewardship contract there.
    Senator Flake. Just one quick question in terms of overall 
priorities and budget.
    In 2014 there was an A&E story about USFS that you had 
abandoned a $10 million initiative to hire an outside firm with 
a five year strategic organizational transformation or branding 
management contract, and I'm glad to see that that was 
abandoned. I would hope that we don't see that kind of money. 
That's big figures, a $10 million contract.
    I know there are other contracts, smaller ones, for 
rebranding of the Department. I would think the best rebranding 
is for the Department to do as you have been in many areas, 
move forward and be able to treat these forests. That's a lot 
better than a $10 million project paid to an outside public 
relations firm to rebrand the Forest Service.
    Mr. Tidwell. Well, Senator, it was never about rebranding. 
The purpose of the contract which was guaranteed for one year 
was to help us find ways to strengthen our connection with 
communities because we found, as you've seen in some of your 
communities, where we've been able to come together. We can 
resolve a lot of the issues, bring people together in a way to 
be able to move forward with the work.
    We don't have that everyplace across the country, so part 
of this was to strengthen our connection and to help people 
understand all of the multiple use that comes with their 
national forests. There are times that I meet with a lot of 
people and they're really interested in promoting their use, 
but at times it gets a little lonely when it comes to multiple 
use because that's our challenge.
    So part of it is to be able to strengthen our connection 
with communities, but also to let people understand all the 
benefits that come from their national forests and to also 
understand this concept of multiple use and the benefits that 
they receive from our forests.
    So I appreciate your comments on that. We're not moving 
forward with that contract. We're going to take a different 
approach on how to strengthen our connection with communities.
    Senator Flake. Alright. Thank you.
    The Chairman. Thank you. I just might add that if you're 
looking to strengthen the connection to communities you should 
be listening to some of these comments from colleagues here 
about the ways that the Forest Service puts a hand out and 
says, no, don't come in here unless you have the appropriate 
permit. Whether it's a day care provider in Wrangel or whether 
it's the kayaker in Seattle or in New Mexico.
    If we're trying to get young people onto our lands it's one 
thing if you take the fourth graders in and you give them a 
great field trip, but if they can't come back with their 
families without having the right kind of a permit, I don't 
think we need to have a campaign to do that. I think it's 
simple common sense.
    Let's go to Senator Manchin, and then we'll go to a second 
round.
    Senator Manchin. Thank you, Madam Chairman.
    As you might know, West Virginia is proud to be the third 
most forested state in the nation, close to 80 percent of the 
entire state is forested. We have 12 million acres of beautiful 
mixed hardwoods and softwoods. Timber production from these 
forests are critical to our state's economy, but they are 
equally important for providing the clean water, outdoor 
recreation, hunting, fishing and all the other uses that we 
enjoy.
    Importantly 87 percent of our forest land is privately 
owned while only 13 percent is publicly owned. So east of the 
Mississippi we don't understand the BLM and all the things that 
go with it and all the challenges our friends out West may 
have. The largest expanse of public land is Monongahela 
National Forest, the fourth largest national forest in the 
Northeast and one of the most ecologically diverse forests in 
the entire National Forest system. We're also proud of our 
beautiful forests and the forest management practices that we 
have enjoyed working with you, so I appreciate that very much.
    My question to you, sir, is that Governor Tomblin, from the 
State of West Virginia, requested a designation of Monongahela 
National Forest as an insect and disease epidemic area citing a 
number of insects and diseases impacting that area. I think 
you're well aware of that. In May of last year you designated 
that requested area. Could you provide an update to me on the 
efforts to address these issues and how the agency is using its 
expedited authorities to get more done on the ground? If you 
could give me a brief on that, I'd appreciate that.
    Mr. Tidwell. Well, Senator, you're referring to the 
designation of areas where we need to use the insect--what we 
call the insect and disease authority from the Farm bill. So 
the first thing was that to get to work with the governors to 
get their recommendations which we were able to do that. And 
then last year we designated, I think, close to 40--over 45 
million acres across the country. It gives us the opportunity 
to use these expedited procedures when it comes to doing EAs 
and EISs where we only will have to look at like one action 
alternative and then a no action alternative.
    And where we--so many places we have these strong 
collaborative groups come together. Folks understand what type 
of work needs to be on the landscape. And so, by just having to 
deal with maybe one, at most, two action alternatives, it will 
save time in the analysis. It will allow us to be able to move 
forward faster.
    Then the other key part of this is also to have the 
categorical exclusion where we can look at up to 3,000 acres at 
a time and be able to use the CE to be able to cover that 
decision. Last year when the bill was passed, which I cannot 
thank you enough for that, we had our program of work in place 
for '14. And it had, often, a lot of our planning started for 
'15. But as we now move forward to start to do the planning for 
projects that we'll be implementing later this year and early 
next year, we'll be able to talk about specific examples to how 
using these new authorities. It's one of the things that I look 
at what's going to really help us to be more effective, look at 
larger landscapes. Once again to be able to reduce the amount 
of analysis and the amount of time that we have to spend to be 
able to implement which in most cases is what people want to 
see done on the ground.
    Senator Manchin. Here's a follow up question. Chief 
Tidwell, your budget proposes a small reduction to total 
funding for R and D, research and development. But due to a $13 
million proposed increase in the forest inventory and analyst 
program, the budget would ultimately reduce funding for other R 
and D programs by $17 million from your FY2015. Can you tell me 
what kind of impact this reduction will have on R and D 
programs and how it may affect my great State of West Virginia?
    Mr. Tidwell. Well, Senator, working under a constrained 
budget we have to make some tough decisions.
    Senator Manchin. Sure.
    Mr. Tidwell. And be able to move forward with the FIA 
that's absolutely essential. There had to be some tradeoffs, so 
what we'll be looking at in FY '16 is that some of our research 
we can slow down, things that are more long term, that whether 
we continue at this pace or we could actually slow down.
    There's also some of the work that is getting close to 
being completed on certain projects that we can identify. We'll 
stop that. But it will have a reduction in the level of 
research.
    Senator Manchin. What type of research and development 
would affect, let's say states in the Northeast, West Virginia, 
maybe out West too?
    Mr. Tidwell. Well it could, for instance, if we had a new 
species or a new invasive----
    Senator Manchin. I just asked you about the species. What 
we're getting, is that going to affect what I just--the first 
question I asked you about, the species we know is invading 
Monongahela, the National Forest?
    Mr. Tidwell. Well, the ongoing work that we're dealing with 
we'll want to continue to do that. But what could happen is if 
we had another invasive come that just showed up tomorrow or if 
something like Thousand Canker started to expand, we're not 
probably going to be able to get into additional research onto 
that.
    So there is going to be some consequences. It's one of the 
things we'll look at what we can do by working with area 
universities and others to be able to see how we can, kind of, 
minimize that impact and see if we can't create some different 
partnerships on that. But it's just one of the consequences 
that we will have to slow down some of our research in certain 
areas, but we'll do everything we can to minimize the impact.
    Senator Manchin. Thank you, sir. Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Manchin.
    Chief, I want to bring up the issue of Secure Rural Schools 
again because in your response to the Senator from West 
Virginia, Senator Capito, I did not really hear what the 
proposal was.
    Earlier in the hearing we had some folks from Petersburg 
here. They were in my office yesterday. This is their biggest 
issue. Seven percent of their community's budget comes from 
Secure Rural Schools funding. Last year they got $1.2 million 
under Secure Rural Schools, but this year under the 25 percent 
proposal they're going to be down to $41,000. Clearly it's 
rattled a small community like that.
    What funding source is the Administration looking to to use 
to pay for the Secure Rural Schools extension? Then what I 
would like to understand is how much timber would have to be 
cut and sold on our national forests to fund the 
Administration's own Secure Rural Schools program?
    Mr. Tidwell. So our proposal is just part of the overall 
President's budget to provide that----
    The Chairman. So there's no pay for them for that. It's 
just included as part of the budget. What I'm trying to get at, 
we've got great interest, I think, from members of this 
Committee to find a way to fund Secure Rural Schools. Do you 
have any proposals for us in terms of how we can fund it? And 
if it's not from timber receipts, how are we going to do it and 
what would those timber receipts be?
    Mr. Tidwell. Well, all the receipts, the timber receipts, 
are going to be part of the two hundred--in our proposal 
there's $275 million that's provided for the first year. I just 
want to stress it's a framework, and we really want to work 
with the Committee about how to put a reauthorization together 
on that. The timber receipts will be part of that, but the 
challenge is----
    The Chairman. How much a part of that?
    Mr. Tidwell. Well, you see with under the 1908 Act the $50 
million that's spread across. That's about the level of funding 
that you see available. You know, the other part--and so it 
takes--we're going to continue to provide, you know, the 
receipts as part of Secure Rural Schools funding. So, those----
    The Chairman. But we don't know how much those receipts are 
or is it the $50 million?
    Mr. Tidwell. Well, $50 million, what was available under 
the 25 percent of the receipts.
    The Chairman. Right.
    Mr. Tidwell. You know, there's about $125 million total 
that could be potentially made available, but there will have 
to be additional funding just like there has been for like the 
last what, 15 years, under Secure Rural Schools.
    The Chairman. So, okay, there's $125 million potentially 
that is available to fund Secure Rural Schools. But we're only 
going to use $50 million of it?
    Mr. Tidwell. Well, under the 1908 Act----
    The Chairman. Okay.
    Mr. Tidwell. With 25 percent.
    The Chairman. Right.
    Mr. Tidwell. That's what it equates to.
    The Chairman. Let me ask about the recreation activities 
and how much they actually generate in terms of receipts. Which 
recreation activities are shared under the 25 percent payments? 
And if you don't know that--what I'm trying to understand is 
what receipts from activities from our national forests are 
coming in and just an understanding as to how much is coming in 
and where it's coming in from?
    Mr. Tidwell. Well, Senator, we can provide you a breakdown 
of each activity that generates receipts and how much that--we 
expect that to be, you know, in FY '16.
    The Chairman. Okay.
    Mr. Tidwell. And the majority of it will come from, you 
know, from timber harvest. But the point that----
    The Chairman. If you could get us a breakdown that lays 
this out, I think that that would be helpful. I've got a whole 
bunch of other questions, and I know that Senator Heinrich 
wanted to go another round here.
    The 2008 amended Forest Plan for the Tongass does not 
contain a renewable energy plan. As you and I discussed as we 
were flying over the Tongass, in order to deal with the high 
cost of energy in Southeast, hydro is the cheapest, most 
available and renewable resource. But it's frustrated. It's 
complicated because of the roadless rule down there. I believe, 
pretty strongly, that we need to have a renewable energy plan 
in the amendment to the Tongass plan the Forest Service is now 
considering.
    I received a letter yesterday directed to Forrest Cole, 
your forest supervisor in the Tongass, that outlines why this 
is an imperative. I want to make sure that is available to you. 
This is something, as important as it is to help with our 
struggling industry there in Southeast, our communities can't 
survive if we don't have affordable energy and the blessing in 
that part of the country is that the affordable energy is a 
renewable energy. If our own policies are limiting or blocking 
our ability to either build that hydro facility or build 
transmission lines, we can't achieve that.
    I'm going to make sure that you've got a copy of this 
letter and hope that you all are working aggressively to make 
sure that we've got a renewable energy plan within the amended 
Forest plan. Okay?
    I'll turn to Senator Heinrich.
    Senator Heinrich. I want to thank you both for letting me 
go next.
    I want to ask you, Chief, about funding for recreational 
facilities. I've heard from communities like Pecos, New Mexico, 
who really their businesses depend on hikers and fishermen and 
picnickers driving through their town as their primary customer 
base, particularly in the summer months. In the last few years 
we've seen a campground, a trail head, and several picnic and 
fishing areas in the Santa Fe National Forest all closed due to 
a lack of operations and maintenance funds. The small 
businesses in the nearby communities have really been hit hard 
by that.
    Does your budget include increased resources for 
recreational facilities and what else can we do to make sure 
that these facilities stay open so that the public lands stay 
public?
    Mr. Tidwell. Our budget request asked for an additional $33 
million to deal with some deferred maintenance around 
recreational facilities and also with our trails which will be 
a start on really what we need to address.
    Once again, we've got to find a way that we can continue to 
respond to the public's needs to provide the level of service. 
Our full--proposal, that is something else we need to discuss 
about the reauthorizing that. It does help us out of the 14,000 
rec sites that we have across the country.
    There's about 4,000 of those where we collect fees that we 
retain and are able to use on site. We keep 95 percent of that 
on site, so that's one of the tools. The other thing, we need 
to continue to look for ways to work with businesses, with our 
concessionaires to find ways to be able to offset the costs of 
operating. We've also had some success with communities, 
especially when a facility is close to the community, the 
community can take it on as just part of being able to maintain 
that and keep it safe and operating.
    So we're going to have to use all of those tools, but 
there's just no question this is an area that the public 
expects a higher level of service. They want to see these 
facilities.
    And I'll tell you it's really difficult when we have to 
look at closing a facility when we can no longer afford to keep 
it open and safe.
    Senator Heinrich. Yeah, I would agree. Chief, this sounds 
like a joke, but it's really not. Do you know why the fish 
crossed the road? It's usually because the Forest Service put 
in a culvert or some other aquatic species crossing device, but 
the number of those has gone down precipitously in recent 
budget years. Particularly with the changes we're seeing in 
climate, the ability for our fisheries, particularly in cold 
weather fisheries in states like New Mexico, to be able to move 
up and down through the watershed in response to those changes 
is really limited by that infrastructure. We've seen that drop 
from, I think it was close to 600 crossings funded in 2010 down 
to 275 in 2012, 168 in FY2014. This is troubling. I wanted you 
to address it.
    Mr. Tidwell. Once again it just reflects the consequence of 
going from 14 percent to over 40 percent of our budget into 
dealing with the cost of fires. We are asking for some 
additional funding in our Integrated Resource Restoration that 
will allow us to do work on about 3,200 miles of streams which 
is often to address these culverts, but it's a tremendous 
backlog.
    The thing that adds to it is that 20 years, 30 years ago 
the culverts that we were putting in place were of a certain 
size. Today, with the change in the weather, the change in the 
climate we're seeing that often these culverts are undersized. 
And so whether we get a rain on snow event or in your country, 
in the, you know, the late summer.
    Senator Heinrich. Monsoons.
    Mr. Tidwell. When we get the monsoons that we're getting 
the duration is in a case where we're getting more of these 
culverts blowing out. So it's just another thing we're dealing 
with with the changing climate, and it's going to be something 
we're going to have to address to be able to find ways to not 
only be able to address this for fish, but also to maintain the 
access.
    Senator Heinrich. Right.
    Mr. Tidwell. Because when we lose the culvert.
    Senator Heinrich. We lose the road.
    Mr. Tidwell. Not only do the fish lose, but then so does 
the public.
    Senator Heinrich. You bet. Last thing. Congress provided 
the Forest Service $65 million in FY2015 to begin modernizing 
the large aircraft tanker fleet. What's the status there of the 
action plan and business case analysis for the large tanker 
program and when do you think you'll be able to provide 
Congress with the action plan to spend that appropriation?
    Mr. Tidwell. With that specific appropriation we've 
actually contracted with a company to do the business case to 
expedite that process. I'm hoping to have that completed in 
May, and we'll submit that into clearance. Then hopefully by 
later this year we'll be able to have that discussion about 
what's the best way to move forward with acquiring additional 
aircraft.
    In addition with what we're doing with the next generation, 
we expect to have, probably, around 24 large air tankers 
operating this year plus our MAFFS units from the air force and 
air reserves. So we're going to be in a good position this 
year. We'll also be starting to bring on the C-130Hs that we'll 
begin to transfer. We're hoping to have the first one that we 
can start to use late this year, and then it will probably be 
in 2017 when they come on. But this potential new aircraft 
would help, basically replace one of those C-130Hs that have a 
very limited life span for us.
    Senator Heinrich. Great. Thank you, Madam Chair.
    The Chairman. Senator Cantwell.
    Senator Cantwell. Thank you.
    Chief Tidwell, I learned recently that the Forest Service 
entered into a MOU, a memorandum of understanding, with the 
Biomass Power Association to expand wood energy use in the U.S. 
This is something that's very interesting to me. Obviously 
there are communities in our country that use wood pellets and 
they can come from smaller trees and debris and things of that 
nature. Obviously collection is an issue and getting them to 
market.
    Older, non-EPA certified wood stoves are considerable 
polluters, but new EPA-certified wood stoves don't even produce 
smoke. So this is a big opportunity to move forward. Separately 
I know EPA is revising how it will count emissions from woody 
biomass in its framework, and this framework can determine how 
biomass can be used to comply with the Clean Air Act 
regulations. Could you tell me about your participation in that 
and also about the MOU and what you hope to accomplish from 
that?
    Mr. Tidwell. Well a couple things will come out of the MOU. 
First of all, there's active competition between folks that 
make wood stoves to actually produce the most efficient stoves, 
but also to minimize any emissions. The advances that have been 
made in that technology is tremendous over the years from what 
it used to be. So that's one of the things we expect will come 
out of this is basically a product that will not only meet any 
air standards but also be even more efficient.
    The second part of that is that we're going to continue our 
work to provide loans and grants to help folks design 
facilities. Senator Murkowski, in your state we're working with 
some of your communities to provide that upfront money to be 
able to do the design to be able to put facilities into place 
so that we can use this renewable energy. So it's not just for 
wood stoves but our program also wants to look at more of the 
commercial facilities, our schools, potentially hospitals and 
also look at our buildings so that we could be able to model 
this.
    Another key part of this is with the Farm bill we have the 
authority to be able to subsidize the transportation of 
biomass. That's still the economic problem of biomass is 
getting it to where it could be used either to a facility to 
convert it into pellets or to haul it to a CoGen plant, 
etcetera. So we do have that authority. We'll continue to use 
it. We used it last year in California on the rim fire project.
    So those are the variety of tools that we're using to 
really expand the use of wood. It's not the solution, but it's 
renewable. It's green energy.
    But it's just another thing that we need to look at, 
because this biomass needs to be removed from our forests. The 
saw logs, that's the easy part. But there's a lot of other 
smaller diameter material and some of it we can put it into 
some of the advanced wood products that are available on the 
market today but there's also a need to use this residual 
material.
    We have a project actually in Southern Colorado where we 
provided some initial funding for this project to get it 
started, and we expect now that it's probably going to save us 
$1 million a year because it provides a use of this material 
verses having to pay somebody to pile it and burn it to remove 
it. And so those are the things we want to continue to build on 
but having efficient, emission free, wood stoves is one of the 
things we hope to get out of this agreement.
    Senator Cantwell. Well I think the fact that those wood 
stoves are a game changer, and there are new products on 
emissions. I think we should look more deeply at this. When I 
look at the Northeast and so many homes are still on home 
heating oil and paying exorbitant prices or visiting Alaska 
with my colleague here and seeing the exorbitant prices, I just 
keep thinking there's got to be a better solution.
    Wood pellets, as you said, it is a green source of energy 
and certainly would be cheaper. And I know that in some non-
attainment areas in parts of the United States communities have 
worked harder to transfer out these inefficient wood stoves and 
put in new ones. Those are the kinds of programs I think we 
should look at.
    I have a related question. My colleague from New Mexico 
made me realize when we had the Carlton Complex Fire we had 
this question. There was a long delay on getting access to 
drones as a way to help us with that fire. What do we need to 
do to get the Department of Homeland Security to give the 
Forest Service the access and the authority to share drones to 
help us in fire fighting awareness on our forests?
    Mr. Tidwell. Well, we're working with Homeland Security, 
also the FAA, to look into being able to use drones.
    We've had a couple situations where working with the state, 
with the Air National Guard, we've actually been able to use 
drones on fires. We did in California a couple years ago, and 
it provided excellent intelligence. It actually identified a 
place in the fire where it crossed the line, but because of the 
heavy smoke cover we were not able to see it. But the drone was 
able to pick that up.
    It was just a perfect example of--it's a tool that we're 
going to be moving forward to be able to use, but it's 
something that needs to be done in a way so that it can be done 
safely with conjunction of all the other air activity on fires. 
And at the same time to address the public's concerns about the 
use of these drones on fires.
    So it's going probably take us a little while before we're 
able to have everything in place. But when we have the 
opportunity, especially working with the states to be able to 
use the military aircraft from time to time, it's one of the 
things we'll probably continue to do in the near term.
    Senator Cantwell. I hope that you will get an agreement 
with them because, to me, this is good information to have. 
When you think about some of these fires that do blow up and 
the challenges that we've had in the past, having that kind of 
data would be very, very helpful.
    Mr. Tidwell. Yes.
    Senator Cantwell. Thank you.
    The Chairman. Yes, the issue of drones is a really 
interesting one. I believe it was the Funny River fire in 
Alaska where----
    Mr. Tidwell. Yes.
    The Chairman. It was very, very helpful in terms of being 
able to target the drops. I have got a couple questions about 
young growth and then one on filming on public lands.
    With this transition to young growth that the 
Administration continues to speak about, you have stated that 
it's going to be necessary to export the young growth logs 
outside of the United States to other countries instead of 
processing them at the mills in Alaska and that export is going 
to have to be part of the transition to young growth timber in 
order for it to be economic. Tell me how exporting the young 
growth trees would help our struggling saw mills? How does this 
actually make the transition to young growth work? We are 
trying to figure out how you transition to young growth so that 
the Industry in Southeast Alaska stays alive. But if you're 
sending all the product overseas you're not going to be able to 
sustain these communities. So I don't see how it works.
    Again, I have been very skeptical during this hearing, and 
I think you can sense my frustration, but this is yet another 
example of where I am not seeing the contribution to the local 
community here.
    Mr. Tidwell. Well, Senator, I wish we didn't have to export 
any logs out of Southeast Alaska. It's my understanding to 
make, whether it's the old growth sales or second growth sales, 
economically viable that we have to allow for some export to 
occur. And it will be done based on the market, etcetera. 
Ideally if we could actually keep all that wood in Southeast 
Alaska and have it the facilities----
    The Chairman. This isn't your idea that this is a good 
thing to export? You appreciate that part of what we are trying 
to do here is figure out how we can keep these smaller 
operators going and that you do that through ensuring available 
product is available in these communities.
    Mr. Tidwell. Yes.
    The Chairman. Not necessarily sending it out of the 
country.
    Let me ask about the issue of retooling. Back in July of 
'13 the Secretary of Agriculture issued this memorandum that 
outlined the goal to transition from the old growth to the 
second growth. In his memo he says ``we're going to pursue 
opportunities to facilitate investments in retooling and to 
develop by December 31 of 2013, in collaboration with rural 
development and other stakeholders, a plan for providing 
financial assistance to retool timber processing equipment in 
Southeast Alaska to assist the industry to handle youth growth 
timber.''
    That plan was due December 31 of '13. The question to you 
is where is the plan that the Secretary asked for and what, if 
anything, can you point to within this budget on retooling 
financial assistance to help the small industry in Southeastern 
Alaska make the transition?
    First, where is the plan and second where do we see the 
retooling efforts in the budget?
    Mr. Tidwell. So it's my understanding with the plan that it 
has been different generations of that to address different 
issues working with rural development.
    I'm also aware of another issue that's come up that we 
weren't aware of. I think it's the Credit Reform Act. I do not 
understand all of it, but it's my understanding that we may 
need to come to you and ask for a reprogramming request to be 
able to provide the funding that we want to be able to use on 
that retooling.
    So I'm going to need to get back to you on this that we may 
need your help on a reprogramming request to be able to work 
with rural development to be able to do this.
    To retool that mill is essential, and I think the sooner we 
can be able to move forward with that and work with the owners 
there to be able to do it, it will help us to be prepared to be 
able to not only start using some second growth but to be 
prepared with the transition that will occur sometime in the 
future.
    The Chairman. Okay, we need to talk about this, Chief, 
because again, this was a directive that is now a year and a 
half stale. There has been no plan developed, and now you are 
saying we need to talk about reprogramming so that we can start 
doing some retooling. These are promises that were made, I 
think, in good faith, fairly, that just simply have not been 
delivered on. In the meantime every time I go back home to 
Ketchikan or any of the communities in the region they are 
saying, okay, we haven't been able to do anything to keep our 
operators alive. On the other, the Administration has promised 
us retooling. We don't see either, so this is a real tough spot 
for us. I think you know that. So you are either going to have 
to help me figure out how we allow for an industry, even a 
small industry, or what you are going to do to keep the promise 
on the retooling because it is just not there. I will look 
forward to visiting with you on this. But this is something. 
Promises made, promises not kept. So we've got to do better, 
Chief.
    Let's go to Senator Franken.
    Senator Franken. Chief Tidwell, you and I have discussed 
the devastating impact of climate change on wildfires 
previously. Fighting wildfires costing a lot of money, about 
half your budget and all that spending means that preventive 
measures such as hazardous fuels treatment is receiving less 
funding, right?
    Mr. Tidwell. Yes.
    Senator Franken. So I'm very interested in exploring how we 
can find new markets for forest waste in order to help pay for 
the removal of hazardous fuels and simultaneously bring 
economic benefit to plants that can burn the waste. For 
example, in my State of Minnesota the District Energy of St. 
Paul was recently recognized for its leadership in using wood 
waste to generate heat and electricity for downtown St. Paul 
while providing its customers with stable and competitive 
energy prices and at the same time reducing CO<INF>2</INF> 
emissions. It seems to me the District Energy projects and 
combined heat and power plants are an ideal market for 
hazardous fuels, particularly ones that are located near our 
forests.
    Chief Tidwell, can you describe what your energy is doing 
on such bio-based energy efforts and can you also tell us what 
needs to be done to encourage more facilities to get involved 
in that arena?
    Mr. Tidwell. Well, Senator, we're continuing to make 
investments in the technology itself with our research 
scientists to be able to look at how to increase the 
efficiency, especially in pellets, to make them not only more 
durable, but actually increase the BTUs. But by doing that it 
expands the use. It also makes it more efficient.
    The other part of it is to find ways to be able to defer 
the transportation costs because that's usually the limiting 
factor. If we have the biomass material at the facility, 
economically it makes good sense to use it. But it's to be able 
to find a way to deal with the transportation. So looking at 
the benefits of chipping a material in the woods and then 
hauling it out that way is some of the things we're using. 
We're also--continuing to make loan money and in some cases 
grant money available, especially through all the USDA programs 
to help provide the funding to do the designs. So it helps 
communities if they want to put a facility in place then here's 
some funding to help pay for the design, do the feasibility 
study, so that they can see if they make the investment that, 
over time, they're actually going to break even on it through 
the use of wood.
    The other key part of it is to provide the source. In your 
case there's a lot of wood available off of private lands and 
county lands, but also in certain parts of your state the wood 
that comes off the national forest is also essential. So it's a 
combination of continuing to improve the technology, providing 
a reliable source of material and then looking at ways to be 
able to address the transportation costs.
    It may mean looking at multiple facilities and maybe less 
large facilities that--and you have to factor in the economics 
of that. But those are the things we're going to continue to 
work on because we need to make use of this material. Not only 
is it a green energy source, but also we need to remove the 
biomass one way or another.
    Senator Franken. Yeah.
    Mr. Tidwell. And so we've got to find a way to use this 
material instead of piling it up, burning it in cases which 
just costs more money. It makes more sense to be able to haul 
it to a facility and to use it.
    We just had a discussion about wood stoves and the 
competition that's occurring to create the most fuel efficient, 
the most emission free wood stove to create, you know. And 
there's a market for that. But that's another thing that's 
going on.
    Granted that's just in homes, but every little piece will 
help. So it's not just what we can do in homes, but also in 
businesses. And we have numerous examples across the country 
where we put these facilities in and in many cases, the 
business has been able to pay off their investment in a matter 
of years because of their energy cost savings.
    Senator Franken. Well, thank you. I see my time is about to 
expire, so I'll submit a question for the record. Thank you, 
Madam Chair.
    The Chairman. Thank you. Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.
    Chief Tidwell, good to see you. Thanks for your previous 
visits to North Dakota.
    I guess my first question is before you finalize the EA for 
the update to the management plan for our lotees on the 
grasslands in North Dakota are you going to be back in North 
Dakota? We'd certainly like to see you again. Any chance you'll 
be back?
    Mr. Tidwell. Well, Senator, I'll look at my schedule. I 
appreciate the times that I've been able to be up there with 
you and also the time I worked up there in the past. Those 
meetings, I've felt, have always been helpful to not only for 
me to understand, continue to understand the issues, but also 
the challenges you're facing up there.
    Senator Hoeven. You've been good about coming. I think 
there's some concerns on the part of our ranchers and grazers 
as far as your draft EA. And so both in terms of their input, 
some of the specific recommendations they have and input from 
North Dakota State University Range Science, I need to 
understand how you're going to take those comments and concerns 
into consideration in going from the draft to a final EA. And I 
think it would be good if you're back to talk about that before 
you finalize the EA.
    Mr. Tidwell. Well, we look at the comments from the 
university along with the comments from everyone else plus the 
other science that's available, and it's all factored into 
those decisions. I understand we've made some progress, you 
know, in resolving some of the issues, but there still is this 
concern about the biological capable areas.
    Senator Hoeven. Right.
    Mr. Tidwell. As to which areas the grass can actually grow 
tall enough to have the stubble height that we'd like to see 
for some of the upland game species. So that's the thing.
    It's going to continue to look at the science that the 
universities provide and the science that we have from our 
scientists, the work that's been done with NRCS and the 
comments from the ranchers. I'm going to remain optimistic that 
we can find a way through on this because there's definitely 
areas where folks agree that it's biologically capable, but 
there's also some areas where we have this disagreement and a 
lot of that is something we don't have to continue to look on 
and work on.
    I also think there's some flexibility here to be able to 
look at these areas and to be able to go out there and just 
monitor it too because there's may be some that it's right on 
the edge. Depending on years it may work, it may not. But I'm 
going to remain optimistic that if we can just understand areas 
we're in agreement and then areas where there's disagreement 
and then go and take a look at those areas and just see what it 
will take for us to be able to reach agreement on that and to 
be able, then, to monitor it because we're in this for the long 
term.
    Senator Hoeven. Can we look at getting you out to have that 
discussion with our grazers and the NDSU Range Scientists and 
your folks before you issue the final EA? Because I think that 
would be a good discussion so that our people can get a sense 
of where you're going and what that flexibility is before you 
finalize that EA?
    Mr. Tidwell. I'll check to see what the schedule is on 
completing that EA and my schedule, and if there's any way I 
can get up there I'll do it.
    Senator Hoeven. Okay. Let's see if we can make that happen. 
It'd be great. I think it'd be helpful.
    The other question is on controlled burns. What measures 
are you taking to make sure that you're taking proper 
precautions to coordinate with people on the ground who live, 
work, ranch, graze, farm, in the area before you're doing any 
controlled burns on forest lands?
    Mr. Tidwell. Well it's essential that we, before we even 
plan to do a prescribed burn that we, not only go through our 
public comment process, but we're also taking the time to meet 
with our cooperators, meet with the community, so that folks 
understand what we're trying to get done here, factor in their 
concerns, you know, make sure we're using all the information 
that we need to have to ensure that when we are in prescription 
to be able to carry out the burn under the conditions where it 
can be controlled, that we have all the information that's 
needed.
    In your case that we need additional weather information. 
And if we're relying on it from one state or one area we may 
have to recognize we need additional information. And if that 
means putting up some portable weather stations ahead of time 
that's the sort of thing we need to do to make sure that we can 
continue to use the tool. But at the same time to do everything 
we can to make sure that we do not have the situation where we 
have a fire, a burn, a prescribed burn, that it gets out of 
prescription and impacts private land, destroys facilities. 
It's the last thing we want to do.
    Senator Hoeven. Yeah, and again, I'd really urge you to 
emphasize to your people that are out on the ground, that local 
coordination, working with those folks. I understand there may 
be different considerations when you're actually working in 
forests, but we are grasslands. That is different, and so 
anything and everything you can do to coordinate with the 
locals I think is very important. Thanks, Chief.
    The Chairman. Senator Cantwell, do you have any additional 
questions?
    Senator Cantwell. No.
    The Chairman. Chief, if I may, just ask one final question? 
I have hinted at this throughout this morning's conversation, 
and this is relating to filming on public lands.
    I have been at a couple of different venues, one inside the 
state, one outside the state, and I thought that I would be 
asked questions about hunting and fishing and sportsmen's 
issues but what it came back to was just this hue and cry over 
filming on public lands. It ties in with what we have heard 
from Senator Heinrich and Senator Cantwell here in terms of 
public access and just understanding what the rules are on our 
public lands.
    It would seem to me that the law on commercial filming that 
we passed in Congress in 2000 is being grossly misconstrued and 
applied in a way that really limits or restricts or sometimes 
outright denies access to our public lands. The folks that I am 
talking to, these are not big movie producers. These are a 
couple people, three people, film crews. They have cameras. 
They have hand held video equipment. They are not disturbing 
the landscape. They are basically going in and taking these 
beautiful pictures that allow people who would otherwise not be 
able to access these amazing lands an opportunity to see it. 
The frustration, I think, is that in some places they are being 
allowed access and others they are not.
    Now I understand that you are planning on issuing a new 
directive on commercial filming in wilderness areas. I don't 
know if it's this month or how soon it's coming up, but can you 
give me a heads up in terms of what this directive will 
actually allow, particularly as it relates to individuals and 
small film operations? We are working together on a proposal in 
the context of the sportsmen's bill that would exempt a 
diminimus number of people who would be engaging in filming on 
our Forest Service lands. What do you think about something 
like this?
    I need to understand a little bit more from your 
perspective where the Forest Service is going on filming.
    Mr. Tidwell. Well, we're going to move forward with taking 
the comments and all the meetings we've had across the country 
to put forward a proposal on how and when, for commercial 
filming, in wilderness. Because of the Wilderness Act that 
restricts or limits commercial activities we need to have a 
system in place so it's consistent across the board for when it 
comes to commercial filming in wilderness.
    And really, what is commercial filming? You know, in the 
past, it's the movies, the Hollywood movies, definitely it is a 
commercial film. But there's a lot of other things--today 
people go out and take pictures. You never had to have a permit 
for that before. Don't have to have a permit for it now. So 
this is all about commercial filming in wilderness. But what 
did come out of the discussions we had across the country was a 
lot of questions around this. And that we've never charged for 
somebody to take a picture.
    The Chairman. I hope we are not planning on it.
    Mr. Tidwell. No, we're not.
    The Chairman. Okay.
    Mr. Tidwell. We never have nor would we. This is about 
commercial filming, and really the permit is to address the 
requirements under the Wilderness Act to be able to put in 
place; these are the opportunities we have for commercial 
filming in wilderness. There's a lot of other places you can go 
film, but certain things.
    We have situations where people want to film in wilderness 
and they want to carry the story about wilderness, whether it's 
wilderness ethic or the importance of wilderness. We feel that 
that fits in fine.
    If it's a Hollywood production that could be filmed 
someplace else verses being in a wilderness we'll probably say, 
hey, here's another landscape. Go film over here.
    The Chairman. What about this diminimus idea? So you have a 
few guys. Let's just say for discussion you have three folks 
and they are carrying all their gear on their back and they are 
hiking in?
    Mr. Tidwell. If it's for a commercial filming and this is 
one of the things we're working on. We're actually working with 
the industry to come up with some clear definitions of just 
what commercial filming is. It's something we're going to have 
to address to be able to find what is the right approach to be 
able to do that, because you're right, today from when we put 
these procedures in place in, what was it? 2000? When the bill 
was? Well today the equipment most of the time, it's something 
like this.
    The Chairman. Yeah, this, on a stick, maybe.
    Mr. Tidwell. Yeah, exactly. And so it really changes the 
concern about impact on the ground because you're not looking 
at large film crews in a lot of cases when somebody wants to do 
a commercial film when they can use the equipment that's either 
on their hand or on their shoulder at the most. So that's the 
thing that we're trying to work through this.
    The Chairman. So----
    Mr. Tidwell. This is just about wilderness and wilderness 
only.
    The Chairman. Okay. So when do you anticipate that this 
directive is going to be out?
    Mr. Tidwell. I'll get back to you on that date.
    The Chairman. You mean, like, soon or a month?
    Mr. Tidwell. It's going to be this year.
    The Chairman. This year? Okay.
    The Chairman. So again, I hope the direction you are taking 
recognizes that it is not necessarily big Hollywood crews, that 
there is a distinction when you go out with this small 
equipment. I would think that we would have an allowance within 
our public lands and a recognition that this is not the type of 
activity that we want to preclude. I appreciate what you are 
saying about the differences between wilderness areas and non-
wilderness areas, but again, there has to be some level of 
consistency out here. What I am hearing from folks is there is 
none right now. It is more than confusing, and it makes folks 
really angry.
    I think we have to get this right. And I'm thinking that if 
you've got small operators using this small equipment and 
you're, I don't know, you mentioned drones, Senator Cantwell. 
There is some really great video footage of the Tongass that 
was taken by these little drones you can get at Best Buy and 
put your camera on it with your GoPro--you get some pretty 
amazing shots.
    I am sure hoping that we are not going to be telling people 
that we can't do that without a permit.
    Mr. Tidwell. Well, Senator, we've had this interim 
directive out, I think, for four or five years. And we did have 
two or three situations where it was applied inconsistently 
which makes the case for why we need to have very clear 
direction to all of our offices about how to approach this.
    And also what is commercial? And that's where we've had 
some, I think, some very productive meetings with the industry 
where they've really helped provide some additional insight 
about how to do this in a way that will make sense to them. And 
so that's where a lot of the comments that we've received have 
come directly from those and a lot of public comments too. But 
because of that work and the meetings we've held across the 
country with industry on this that I feel we'll be able to move 
forward in a way with something that works, that it's clear and 
people won't have to worry about when they need a permit or 
not. It will be very clear for those that do need it around 
this concept of commercial and wilderness.
    That's the thing we're moving forward to. And I'm 
optimistic, based on the comments in the meetings that I have 
had with some of the folks, that we'll be in a much better 
place than the interim directive we've been following in the 
past. This will be improved. It will be easier, and it will be 
better.
    The Chairman. Well, I hope so because I do not think it 
does the Forest Service any good----
    Mr. Tidwell. Yeah.
    The Chairman. To see top of the fold headlines in the 
Juneau Empire about the Forest Service banning the use of 
photographs or photographers in the Tongass. That is not good 
for you. It creates confusion.
    Mr. Tidwell. It's never happened. It never will.
    The Chairman. Okay, with that I appreciate the time that 
you have given the Committee this morning. I think you got a 
whole host of issues placed in front of you.
    I would like to talk to you a little bit more about some of 
the things we discussed here this morning, but I think you can 
hear the continuing concern and frustration from the people of 
the Tongass as we try to live in an area where we are a hundred 
percent surrounded by our nation's largest national forest.
    Mr. Tidwell. Yes.
    The Chairman. And not much room to move around. So thank 
you and I thank my Ranking Member this morning.
    [Whereupon, at 12:12 p.m., the hearing was adjourned.]
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
   
    
   
   
</pre></body></html>
